   December 22, 2005




Financial Management
Internal Controls Over the
Compilation of the Air Force, General
Fund, Fund Balance With Treasury
for FY 2004
(D-2006-039)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
ASA                   Annual Statement of Assurance
DDRS                  Defense Departmental Reporting System
DDRS-AFS              DDRS-Audited Financial Statements
DDRS-B                DDRS-Budgetary
DFAS                  Defense Finance and Accounting Service
FASAB                 Federal Accounting Standards Advisory Board
FBWT                  Fund Balance With Treasury
FMFIA                 Federal Managers’ Financial Integrity Act
FMR                   Financial Management Regulation
GAFS-R                General Accounting and Finance System-Rehost
OMB                   Office of Management and Budget
OUSD(C)/CFO           Office of the Under Secretary of Defense (Comptroller)/Chief
                         Financial Officer
SFFAS                 Statement of Federal Financial Accounting Standards
SOP                   Standard Operating Procedure
TFM                   Treasury Financial Manual
                             INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704




                                                                        December 22,2005
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
                 (COMPTROLLER)/CHIEF FINANCIAL OFFICER
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCTAL MANAGEMENT AND COMPTROLLER)
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE DENVER
SUBJECT: Report on Internal Controls Over the Compilation of the Air Force, General
         Fund, Fund Balance With Treasury for FY 2004 (Report No. D-2006-039)

        We are providing this report for review and comment. We considered
management comments from the Deputy Chief Financial Officer and the Director of
Defense Finance and Accounting Service on a draft of this report when preparing the final
report.
        DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Deputy Chief Financial Officer comments were partially responsive on
Recommendations A.1 .a.(l)-(5), A.1 .b.-f., D.1 .a., and D. 1.b.(l)-(2) and not responsive on
Recommendations B. 1.c.-e. and D. 1.c.( l )-(2). Therefore, we request additional
comments on these recommendations by January 23,2006. The Director of Defense
Finance and Accounting Service comments were not responsive on Recommendations
B.2.b.(l)-(6) and E. 1.a.-c. Therefore, we request additional comments on these
recommendations by January 23,2006.
       If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Auddfs@.dodip.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed 1
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).
       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Douglas Neville at (703) 428- 1061 (DSN 664-106 1) or Mr. Mark Henricks at
(703) 428-1270 (DSN 664-1270). See Appendix K for the report distribution. The team
members are listed inside the back cover.
                                By direction of the Deputy Inspector General for Auditing:



                                                  Granetto, CPA
                                        Assistant Inspector General
                                        Defense Financial Auditing
                                                  Service
                     Department of Defense Office of Inspector General
Report No. D-2006-039                                                               December 22, 2005
      (Project No. D2005-D000FP-0074.000)

               Internal Controls Over the Compilation of the Air Force,
               General Fund, Fund Balance With Treasury for FY 2004

                                        Executive Summary

Who Should Read This Report and Why? Defense Finance and Accounting Service
(DFAS) personnel involved with the Fund Balance With Treasury (FBWT) account
should read this report. This report contains guidance that DFAS can use to assess and
validate the reporting of DoD and its Components’ FBWT accounts on their financial
statements.

Background. We performed this audit in support of Public Law 101-576, the “Chief
Financial Officers Act of 1990,” November 15, 1990, as amended by Public
Law 103-356, the “Federal Financial Management Act of 1994,” October 13, 1994, and
Public Law 104-208, the “Federal Financial Management Improvement Act of 1996,”
September 30, 1996.

The Air Force General Fund (General Fund), Consolidated Balance Sheet reported
$60.6 billion in their FBWT account and $243.1 billion in total assets as of
September 30, 2004. The General Fund FBWT account represented 20.9 percent of the
FBWT account reported on the DoD Agency-Wide Consolidated Balance Sheet as of
September 30, 2004.

Results. Overall, DFAS Denver did not have adequate controls over the compilation
process for the General Fund FBWT account as of September 30, 2004. We identified
the following internal control weaknesses.

           •    DFAS Denver did not adequately reconcile General Fund expenditure and
                receipt accounts to expenditure and receipt accounts established and reported
                in Treasury reports. Specifically, DFAS Denver did not reconcile
                113 (34 percent) of the 329 expenditure and receipt accounts established and
                reported by Treasury as of September 30, 2004. Of the 113 expenditure and
                receipt accounts not reconciled, 59 accounts were active at least once,
                54 accounts never had activity,∗ and 12 of the 59 accounts had activity during
                FY 2004 of $10.9 billion (absolute). As a result, these unresolved differences
                compromised the reliability of the accounting records for DFAS Denver
                expenditure and receipt accounts. In addition, the lack of reconciliation
                further hinders preparation of General Fund auditable financial statements
                (finding A).



∗
    19 of the 54 accounts were FY 2005 accounts, which were established by Treasury prior to the end of
     FY 2004.
       •   DFAS Denver did not have adequate internal controls for classifying
           expenditure accounts as entity or non-entity and by fund type. Specifically,
           DFAS Denver had to create multiple journal voucher adjustments after fiscal
           year-end in Defense Departmental Reporting System-Audited Financial
           Statements (DDRS-AFS) to classify expenditure accounts as entity or
           non-entity and by fund type. In particular, DFAS Denver made three journal
           voucher adjustments to assign the entity attribute and five journal voucher
           adjustments to assign the fund type attribute. Although the net effect of these
           journal voucher adjustments to the General Fund, FBWT account was
           $79.3 million, a potential misclassification error of $1.3 billion (absolute) may
           occur on the classification of expenditure accounts as entity or non-entity and
           by fund type. As a result, potential misstatements may occur on the financial
           statements. In addition, auditors were not able to perform a timely review of
           the General Fund financial statement compilation process; therefore, future
           audits of the General Fund financial statements may not be completed in the
           required 45-day timeframe (finding B).

       •   DFAS Denver did not adequately support any of the 14 journal voucher
           adjustments created in DDRS-AFS to adjust the September 30, 2004, General
           Fund FBWT account by $1.5 billion (absolute). As a result, potential
           misstatements may occur on the financial statements (finding C).

       •   DFAS Denver incorrectly included $6.9 million of Air Force transfers to the
           Department of Transportation, excluded $16.1 million of transfers to the Air
           Force from the Office of Management and Budget and the Department of
           Agriculture, and included $152 million in unavailable receipt accounts in
           Line 2.A., “Fund Balance per Treasury.” As a result, DFAS Denver
           overstated the amount for Line 2.A., “Fund Balance per Treasury,” in Note 3,
           “Fund Balance With Treasury,” by $142.8 million on the September 30, 2004,
           General Fund financial statements. Furthermore, DFAS Denver is not
           reporting the correct reconciling amount in Note 3, “Fund Balance With
           Treasury” (finding D).

       •   The DFAS Denver Management Control Program for FBWT was ineffective
           and did not identify and report material weaknesses for FBWT in their
           FY 2004 Annual Statement of Assurance. As a result, DFAS Denver cannot
           provide reasonable assurance that internal controls for the General Fund
           FBWT account are in place and operating effectively (finding E).

Management Comments and Audit Response. The Deputy Chief Financial Officer
concurred with 22 of the recommendations and nonconcurred with 1 of the
recommendations. The Director of DFAS concurred with 14 of the recommendations
and nonconcurred with 9 of the recommendations. The Director of DFAS stated that
none of the audit findings were proven to identify any material or substantive
deficiencies. However, the Director of DFAS did not, for the most part, take exception to
the improvements recommended in the audit report. The Deputy Chief Financial Officer
comments were partially responsive to 13 recommendations and not responsive to
5 recommendations. The Director of DFAS comments were not responsive to nine
recommendations. Therefore, we request that the Deputy Chief Financial Officer and the
Director of DFAS provide comments on the final report by January 23, 2006. See the
Finding sections of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.



                                             ii
Table of Contents

Executive Summary                                                               i

Background                                                                     1

Objectives                                                                     3

Management Control Program Review                                               3

Findings
     A. Reconciliation of the Air Force General Fund Expenditure and Receipt
          Accounts                                                              5
     B. Expenditure Account Attributes                                         12
     C. DDRS-AFS Journal Voucher Adjustments                                   21
     D. Air Force, General Fund, Note 3, “Fund Balance With Treasury”          25
     E. DFAS Denver Management Control Program for FBWT                        33

Appendixes
     A.    Scope and Methodology                                               38
     B.    Prior Coverage                                                      41
     C.    Fund Balance With Treasury                                          42
     D.    Glossary                                                            43
     E.    Treasury Fund Symbols and Expenditure and Receipt Accounts          45
     F.    Treasury Reports for Fund Balance With Treasury                     49
     G.    List of Expenditure and Receipt Accounts Not Reconciled from the
             GAFS-R Trial Balance                                              51
     H.    Checklists for Reviewing Financial Management Systems               54
     I.    Hierarchy of Accounting Standards                                   56
     J.    Elements of a Management Control Program                            57
     K.    Report Distribution                                                 58

Management Comments
     Office of the Under Secretary of Defense                                  61
     Defense Finance and Accounting Service                                    65
Background
    We performed this audit in support of Public Law 101-576, the “Chief Financial
    Officers Act of 1990,” November 15, 1990, as amended by Public Law 103-356,
    the “Federal Financial Management Act of 1994,” October 13, 1994, and Public
    Law 104-208, the “Federal Financial Management Improvement Act of 1996,”
    September 30, 1996. See Appendix A for scope and methodology and
    Appendix B for prior coverage related to the objectives.

    Fund Balance With Treasury. Fund Balance With Treasury (FBWT) is an asset
    account that represents a material line item on the September 30, 2004, General
    Fund and the DoD Agency-Wide Consolidated Balance Sheets. The General
    Fund FBWT account and total assets are material to the DoD Agency-Wide
    Consolidated Balance Sheet. Table 1 shows the percentages.

           Table 1. September 30, 2004 Consolidated Balance Sheet Extracts
                                                    DoD         Percentage of
                               General Fund      Agency-Wide DoD Agency-Wide
     FBWT                      $ 60.6 billion   $ 289.6 billion          20.9%
     Total Assets               243.1 billion     1,208.5 billion               20.1%
     FBWT as a Percentage
     of Total Assets                   24.9%              24.0%


    Statement of Federal Financial Accounting Standards No. 1, “Accounting for
    Selected Assets and Liabilities,” March 30, 1993, defines an entity’s Fund
    Balance With Treasury as “… the aggregate amount of funds in the entity’s
    accounts with Treasury for which the entity is authorized to make expenditures
    and pay liabilities.” See Appendix C for more information on FBWT. See
    Appendix D for a glossary of FBWT terminology.

    DoD Reporting of Receipts and Disbursements to Treasury. Disbursing
    officers and agencies report their accountability and transactions on the following
    Standard Forms (SF):

       •    SF 1219: Statement of Accountability, and

       •    SF 1220: Statement of Transactions.

    The SF 1219, Statement of Accountability, summarizes collection and
    disbursement activity for the month. The SF 1220, Statement of Transactions,
    shows a detailed account classification of the collections and disbursements
    processed in disbursing officers’ accounts for the current accounting period.
    Agencies must identify each receipt or disbursement accounting transaction with
    the appropriate Treasury fund account symbol.

    Fund account symbols are used for internal and external reporting purposes. In
    general, the fund account symbol indicates (1) the department to which funds
    were appropriated; (2) the fiscal year(s) during which the appropriation is
    available for obligation; and (3) the basic fund group and numerical identification


                                         1
of the appropriation. The SF 1219 Statement of Accountability and the SF 1220
Statement of Transactions reflect the Government’s receipts and disbursements.
The U. S. Treasury (Treasury) uses agencies’ reporting of receipts and
disbursements to update its record of agencies’ FBWT account balances. See
Appendix E for a detailed explanation of Treasury fund symbols and expenditure
and receipt accounts.

Treasury Reports. Treasury records the disbursement and collection data from
the Statements of Transactions in the FBWT account maintained for each
expenditure and receipt account in the Treasury’s accounting and reporting
system. The Treasury then prepares five FBWT reports including two for
expenditure accounts and three for receipt accounts. See Appendix F for a
discussion of the Treasury reports for FBWT.

Reconciliation of Expenditure and Receipt Accounts. Treasury criteria state
that reconciling FBWT accounts is a key internal control process. It assures the
reliability of the Government’s receipt and disbursement data reported by
agencies. Unresolved differences compromise the reliability of FBWT balances
(as well as other Standard General Ledger balances) and Treasury’s published
financial reports. This, in turn, compromises the overall integrity and status of the
Government’s financial position. Therefore, agencies must perform timely
reconciliations and implement effective and efficient reconciliation processes.

Defense Finance and Accounting Service. The Defense Finance and
Accounting Service (DFAS) provides finance and accounting services for DoD
Components. DFAS Denver performs the centralized financial accounting and
reporting for the Air Force. DFAS Denver accounts for the Air Force General
and Working Capital Funds.

Defense Finance and Accounting Service Denver Financial Systems. DFAS
Denver General Accounting and Finance System–Base Level (GAFS-BL) is the
standard base-level accounting and finance system used to record base level
accounting transactions. GAFS-BL records all stages of fund execution, from
commitment through paid accrued expenditures. Base level financial information
from the GAFS-BL is electronically submitted to the General Accounting and
Finance System–Rehost (GAFS-R) at DFAS Denver for processing.

GAFS-R is the official DFAS Denver accounting system for Air Force and was
implemented in FY 2004. DFAS Denver uses the GAFS-R to assist in the
preparation of General Fund budget reports and financial statements. Financial
data flow into GAFS-R from GAFS-BL and 17 other systems.

DFAS Denver transmitted the GAFS-R beginning of period file to the Defense
Departmental Reporting System–Budgetary (DDRS-B) in October 2004 to
establish the beginning balances for the General Fund in DDRS-B. Each month
DFAS Denver transmits the current month transaction file to DDRS-B. The
current month transaction file overwrites and replaces the previous month
transaction file.

Defense Departmental Reporting System. The Defense Departmental
Reporting System (DDRS) consists of DDRS-B and DDRS-Audited Financial
Statements (DDRS-AFS). DDRS-B is designed to standardize the DoD
departmental reporting process and produce the monthly departmental budgetary


                                      2
    reports based on the United States Standard General Ledger and standard
    attributes. DDRS-AFS is designed to standardize the DoD departmental financial
    reporting process and produce the annual and quarterly departmental reports
    based on the United States Standard General Ledger.


Objectives
    Our overall audit objective was to assess the controls over the FBWT account
    related to the General Fund financial statements for the fiscal year ending
    September 30, 2004. Specifically, we assessed the controls over the compilation
    process from the DFAS Denver GAFS-R trial balance to the published General
    Fund financial statements. We were not engaged to perform, and did not perform,
    an examination of the subject matter, the objective of which would be the
    expression of an opinion. We also reviewed the management control program as
    it related to the overall objective.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of DFAS Denver’s internal controls over the compilation process of the
    General Fund FBWT account from the DFAS Denver GAFS-R trial balance to the
    published General Fund financial statements for FY 2004. Specifically, we
    reviewed DFAS Denver internal controls over the reconciliation of expenditure
    and receipt accounts, for classifying expenditure and receipt accounts as entity or
    non-entity and by fund type, for providing supporting documentation to journal
    voucher adjustments, and for calculating Line 2.A., “Fund Balance per Treasury,”
    in Note 3, “Fund Balance With Treasury.” We reviewed management’s self-
    evaluation applicable to those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses at the Office of the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer (OUSD[C]/CFO) and DFAS Denver as
    defined by DoD Instruction 5010.40. OUSD(C)/CFO and DFAS Denver internal
    controls over the reconciliation of expenditure and receipt accounts were not
    adequate to ensure that all expenditure and receipt accounts established and
    reported by Treasury were reconciled (finding A). Recommendation A.1., if
    implemented, will improve reconciliation procedures for all applicable DoD
    Components, and Recommendation A.2., if implemented, will further improve the
    reconciliation process at DFAS Denver.

    In addition, OUSD(C)/CFO and DFAS internal controls were not adequate to
    ensure that expenditure accounts were properly assigned entity or non-entity and
    fund type attributes (finding B). Recommendation B.1., if implemented, will


                                         3
improve the process for assigning entity or non-entity and fund type attributes to
expenditure accounts for all applicable DoD Components, and
Recommendation B.2, if implemented, will further improve the process at DFAS
Denver.

Also, OUSD(C)/CFO and DFAS Denver internal controls for providing
supporting documentation to journal voucher adjustments were not adequate
(finding C). Recommendation C.1., if implemented, will improve the procedures
for providing supporting documentation to journal voucher adjustments for all
applicable DoD Components, and Recommendation C.2., if implemented, will
further improve the procedures at DFAS Denver.

Finally, OUSD(C)/CFO and DFAS Denver internal controls for calculating
Line 2.A., “Fund Balance per Treasury,” in Note 3, “Fund Balance With
Treasury,” were not adequate to ensure the amount was calculated correctly
(finding D). Recommendation D.1., if implemented, will improve the procedures
for calculating Line 2.A., “Fund Balance per Treasury,” for all applicable DoD
Components, and Recommendation D.2., if implemented, will further improve the
procedures at DFAS Denver.

A copy of the report will be sent to the senior officials in charge of internal
controls for the OUSD(C)/CFO and DFAS Denver.

Adequacy of Management’s Self-Evaluation. DFAS Denver officials did not
identify reconciling expenditure and receipt accounts, classifying expenditure and
receipt accounts as entity or non-entity and by fund type, providing supporting
documentation to journal voucher adjustments, and calculating Line 2.A., “Fund
Balance per Treasury,” in Note 3, “Fund Balance With Treasury,” within its
assessable units and, therefore, did not identify or report the material management
control weaknesses identified by the audit.




                                      4
                    A. Reconciliation of the Air Force
                       General Fund Expenditure and
                       Receipt Accounts
                    DFAS Denver did not adequately reconcile General Fund expenditure and
                    receipt accounts to expenditure and receipt accounts established and
                    reported in Treasury reports. Specifically, DFAS Denver did not reconcile
                    113 (34 percent) of the 329 expenditure and receipt accounts established
                    and reported by Treasury as of September 30, 2004. Of the
                    113 expenditure and receipt accounts not reconciled:

                                  •   59 accounts were active at least once,

                                  •   54 accounts never had activity,1 and

                                  •   12 of the 59 accounts had activity during FY 2004 of
                                      $10.9 billion (absolute).2,3
                    The inadequate reconciliation occurred because DoD criteria did not
                    adequately implement Treasury reconciliation requirements. As a result,
                    these unresolved differences compromised the reliability of the accounting
                    records for DFAS Denver expenditure and receipt accounts. In addition,
                    the lack of reconciliation further hinders preparation of General Fund
                    auditable financial statements.


Criteria for Reconciling Expenditure and Receipt Accounts
            The Treasury Financial Management Services (FMS), through the Treasury
            Financial Manual (TFM), requires Federal agencies (agencies) to reconcile their
            FBWT expenditure and receipt accounts on a monthly basis. The OUSD(C)/CFO
            implements Treasury policy and DoD policy through DoD Regulation 7000.14-R,
            Financial Management Regulation (FMR) and interim policies and guidance
            promulgated through memoranda. The DFAS centers implement DoD policy
            through operating instructions and standard operating procedures.

            Treasury Financial Manual. The TFM, Volume 1, Part 2, Chapter 5100,
            Supplement, “Fund Balance With Treasury Reconciliation Procedures,”
            November 1999, requires agencies to reconcile their standard general ledger
            account 1010, “Fund Balance With Treasury,” and any related subaccounts with
            the FMS 6652, 6653, 6654, and 6655 on a monthly basis (at minimum). Agencies
1
    19 of the 54 accounts were FY 2005 accounts, which were established by Treasury prior to the end of
     FY 2004.
2
    The absolute total represents the absolute value when summing all lines in each monthly Treasury report.
     However, each line in the Treasury reports only represents the net transaction total for that line. For
     example, the net disbursement line may consist of a $100 disbursement and a $50 collection or correction
     for a net disbursement total of $50. Therefore, the net disbursement totals on Treasury reports do not
     represent the absolute dollar amount of transactions.
3
    The remaining 47 accounts had activity in FY 2003 or earlier.



                                                       5
     must review those accounts each month to maintain the accuracy and reliability of
     their FBWT records for both prior year and current year appropriations. Agencies
     must reconcile no-year, revolving, deposit, and trust fund accounts. Agencies
     also must reconcile clearing and receipt accounts. This detailed reconciliation
     assures that agency data accumulated in the FBWT account is accurate. It also
     allows the agency to resolve differences in a timely manner. When resolving
     differences, agencies should maintain detailed reconciliation worksheets that, if
     needed, can be reviewed by the agency’s auditors or Treasury.

     DoD Financial Management Regulations. DoD FMR, Volume 4, Chapter 2,
     “Accounting for Cash and Fund Balance With Treasury,” January 1995,
     prescribes the accounting policy and related management requirements necessary
     to establish financial control over FBWT and cash resources not part of the
     FBWT. Furthermore, Chapter 2 requires DoD to explain any discrepancies
     between FBWT in their general ledger accounts and the balance in the Treasury’s
     accounts and explain the causes. Discrepancies caused by time lag should be
     reconciled and discrepancies caused by error should be corrected.

     DoD Memorandum. The OUSD(C)/CFO memorandum, “Disbursement and
     Collection Reconciliation Procedures,” February 11, 2002, requires DFAS to
     reconcile disbursement and collection amounts reported in the FBWT account at
     the DFAS center-level within 10 workdays after month-end. DFAS centers are to
     forward the results of the reconciliation to the OUSD(C)/CFO by the 20th
     working day after month-end. DFAS is to take steps to standardize best business
     practices within its centers to ensure the consistent application of the processes
     and reporting formats.

     DFAS Denver Operating Instruction. DFAS Denver Operating Instruction 17,
     “Fund Balance With Treasury: Reconciliation Between Departmental Reporting
     Centers and Treasury Disbursements and Collections,” November 1, 2003,
     requires DFAS Denver to compare Treasury ending account balances for the Air
     Force to the ending account balance for account 1010, “FBWT,” in the GAFS-R.
     DFAS Denver is then required to research and resolve any differences by
     appropriation and year.


Reconciliation of the Air Force General Fund Expenditure and
  Receipt Accounts
     DFAS Denver did not adequately reconcile General Fund expenditure and receipt
     accounts to Treasury reports. Specifically, DFAS Denver did not reconcile
     113 (34 percent) of the 329 expenditure and receipt accounts established and
     reported by Treasury as of September 30, 2004. Of the 113 expenditure and
     receipt accounts not reconciled:

                    •   59 accounts have been active at least once,

                    •   54 accounts never had activity, and

                    •   12 of the 59 accounts had activity during FY 2004 of
                        $10.9 billion (absolute).



                                          6
    Table 2 shows the 12 expenditure and receipt accounts that had activity during
    FY 2004.

      Table 2. Expenditure and Receipt Accounts with Activity for FY 2004

                         Treasury    Fiscal    Account           Absolute
      Account Type        Index      Year      Number         Dollar Amount
      Expenditure           57        00      3300           $            383.42
      Expenditure           57        F*      3875.001         8,673,411,337.23
      Expenditure           57        F*      3885.007         2,233,056,987.88
      Receipt               57         -      1060                   332,915.91
      Receipt               57         -      1099                   385,728.79
      Receipt               57         -      1210                     5,200.00
      Receipt               57         -      1299                     1,191.46
      Receipt               57         -      1435                     2,388.49
      Receipt               57         -      3200                36,826,072.78
      Receipt               57         -      5095.001               920,045.33
      Receipt               57         -      8928.001             2,170,369.50
      Receipt               57         -      8928.002                30,302.59
       Total                                                 $10,947,142,923.38

      *The “F” symbolizes a clearing account. See Appendix E for more
      information on Treasury fund symbols.


    The three expenditure accounts represented 99.6 percent of the FY 2004 activity
    total. As of September 30, 2004, Treasury reported an ending balance of
    $40.7 million for the nine receipt accounts before being closed by Treasury. The
    three expenditure accounts had an ending balance of ($8.1) million.

    See Appendix G for a complete list of the 113 expenditure and receipt accounts
    that were not reconciled by DFAS Denver. In addition, see Appendix G for the
    expenditure and receipt accounts that had activity at least once, that never had
    activity, that had activity in FY 2004, and that had a FY 2004 year-end balance.


Adequacy of DoD Criteria
    DFAS Denver did not adequately reconcile General Fund expenditure and receipt
    accounts to Treasury reports because the DoD criteria did not adequately
    implement Treasury reconciliation requirements. Specifically, the DoD FMR,
    OUSD(C)/CFO interim guidance, and DFAS Denver Operating Instruction did
    not:

                   •   list the specific Treasury reports that DFAS should use to
                       reconcile their expenditure and receipt accounts on a monthly
                       basis,




                                        7
                  •   require DFAS to review all the expenditure and receipt
                      accounts reported on Treasury reports to determine whether
                      they are valid accounts and are still being used by DFAS, and

                  •   require DFAS to coordinate with Treasury to remove invalid
                      and unused expenditure and receipt accounts from Treasury
                      reports.

    In addition, the DoD FMR and OUSD(C)/CFO guidance did not require DFAS to
    reconcile expenditure and receipt accounts to Treasury reports on a monthly basis.
    Additionally, the DoD FMR and DFAS Denver Operating Instruction did not
    provide a time period for reconciling the expenditure and receipt accounts and
    reporting the reconciliation to the OUSD(C)/CFO. Also, the DFAS Denver
    Operating Instruction was not signed.

    OUSD(C)/CFO needs to revise the DoD FMR for reconciling expenditure and
    receipt accounts to Treasury reports. DFAS Denver needs to delete the old Air
    Force Operating Instruction and develop formal standard operating procedures for
    reconciling expenditure and receipt accounts to Treasury reports. DFAS Denver
    then needs to make these procedures part of their standard operating procedures.


Conclusion
    Ineffective FBWT reconciliations further hinder preparation of agency auditable
    financial statements. Without effective agency reconciliations of receipt and
    disbursement activity, the agency FBWT balance–the amount of funds available
    to it for expenditure in each appropriation–may contain material misstatements.
    Generally, auditors would be unable to determine whether FBWT is fairly stated.


Recommendations, Management Comments, and Audit
  Response
    A.1. We recommend that the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer implement Treasury requirements by
    revising DoD Regulation 7000.14-R, Financial Management Regulation,
    Volume 4, Chapter 2, “Accounting for Cash and Fund Balance With
    Treasury,” issued January 1995, to establish specific procedures for the
    reconciliation of Fund Balance With Treasury to:

            a. Reconcile the DoD standard general ledger account 1010, “Fund
    Balance With Treasury,” to the expenditure and receipt accounts listed on
    the following Treasury reports:

                  (1) FMS 6653, “Undisbursed Appropriation Account Ledger.”

                  (2) FMS 6654, “Undisbursed Appropriation Account Trial
                      Balance.”

                  (3) FMS 6655, “Receipt Account Ledger.”


                                        8
              (4) FMS 6655, “Receipt Account Trial Balance.”

              (5) FMS 6655, “Report of Unavailable Receipt Transactions.”

       b. Reconcile expenditure and receipt accounts on a monthly basis.

      c. Perform the reconciliation within a specified number of days after
month-end.

       d. Report the results of the reconciliation within a specified number
of days to the Office of the Under Secretary of Defense (Comptroller)/Chief
Financial Officer.

       e. Review on a periodic basis, at least annually, all the expenditure
and receipt accounts reported on Treasury reports to determine whether
they are valid accounts and are still being used by Defense Finance and
Accounting Service.

       f. Coordinate with Treasury to remove invalid or unused expenditure
and receipt accounts from Treasury reports.

Management Comments. The Deputy Chief Financial Officer concurred. The
Deputy Chief Financial Officer stated that the DoD FMR will be revised to state
that the United States Standard General Ledger account 1010, “FBWT,” must be
reconciled with the applicable Treasury reports or the Account Summary Report
in the Treasury Government-Wide Accounting System. In addition, the Deputy
Chief Financial Officer stated the DoD FMR will be revised to include the
frequency and timeliness of the reconciliation and require an annual validation by
DFAS of the DoD accounts reported in the applicable Treasury reports or the
Account Summary Report. Finally, the Deputy Chief Financial Officer stated that
she will not list the specific requirements in the DoD FMR, but the DoD FMR
will direct the reader to Treasury FBWT reconciliation procedures.

Audit Response. Although the Deputy Chief Financial Officer concurred with
the recommendations, we consider the comments partially responsive. We
request that the Deputy Chief Financial Officer reconsider her position that
specific reconciliation procedures will not be included in the DoD FMR. The
DoD FMR outlines internal control requirements to ensure that DoD policy is
implemented and followed. Individuals responsible for reconciling FBWT
accounts need all these requirements in one location. In addition, the Deputy
Chief Financial Officer did not comment on the recommendations regarding the
reporting of reconciliation results and coordinating with Treasury to remove
invalid or unused expenditure and receipt accounts from Treasury reports
(Recommendations A.1.d. and A.1.f.). We request the Deputy Chief Financial
Officer provide additional comments and an estimated completion date on the
final report.




                                    9
A.2. We recommend that the Director of Defense Finance and Accounting
Service Denver:

       a. Determine whether the 113 expenditure and receipt accounts not
reconciled are valid and are still being used by the Air Force General Fund.

             (1) If an account is valid and still being used by the Air Force
General Fund, establish the expenditure or receipt account in the General
Accounting and Finance System-Rehost.

            (2) If an account is invalid and not being used by the Air Force
General Fund, coordinate with Treasury to have the expenditure or receipt
account removed from Treasury reports.

Management Comments. The Director of DFAS Headquarters concurred. The
Director stated that none of the 113 expenditure and receipt accounts identified
had a material effect on the FY 2004 financial statement data. However, the
following corrective actions were taken. In July 2005, Treasury removed
70 invalid accounts with zero balances as requested by DFAS Denver. In
addition, DFAS Denver has taken corrective actions to establish receipt accounts
in GAFS-R to facilitate the inclusion of receipt accounts in their monthly
reconciliations. Additionally, DFAS Denver will include valid expenditure and
suspense accounts with zero balances on their monthly reconciliations. The
estimated completion date for the corrective actions was November 30, 2005.

      b. Delete Operating Instruction 17, “Fund Balance With Treasury:
Reconciliation Between Departmental Reporting Centers and Treasury
Disbursements and Collections,” November 1, 2003.

Management Comments. The Director of DFAS Headquarters concurred. The
Director stated that Operating Instruction 17, “Fund Balance With Treasury:
Reconciliation Between Departmental Reporting Centers and Treasury
Disbursements and Collections,” November 1, 2003, has been rescinded.

        c. Establish formal standard operating procedures to implement the
Office of the Under Secretary of Defense (Comptroller)/Chief Financial
Officer requirements for reconciling expenditure and receipt accounts by
establishing procedures for:

             (1) Identifying the specific Treasury reports that Defense
Finance and Accounting Service Denver should use to reconcile their
expenditure and receipt accounts on a monthly basis.

               (2) Requiring Defense Finance and Accounting Service Denver
to review all the expenditure and receipt accounts reported on Treasury
reports to determine whether they are valid accounts and are still being used
for the Air Force General Fund.

               (3) Requiring Defense Finance and Accounting Service Denver
to establish valid accounts and accounts that are still being used by the Air
Force General Fund in the Defense Finance and Accounting Service Denver
General Accounting and Finance System-Rehost.



                                   10
              (4) Requiring Defense Finance and Accounting Service Denver
to coordinate with Treasury to remove from Treasury accounts the invalid
accounts or accounts that are not being used by the Air Force General Fund.

               (5) Establishing time periods for reconciling expenditure and
receipt accounts and reporting the results of the reconciliation, based on
policy established by the Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer.

             (6) Requiring the appropriate signature on the standard
operating procedures and making these procedures part of the Defense
Finance and Accounting Service standard operating procedures.

Management Comments. The Director of DFAS Headquarters concurred. The
Director stated that standard operating procedures are being formalized and will
be updated in accordance with revised DoD Regulation 7000.14-R, FMR,
Volume 4, Chapter 2, “Accounting for Cash and Fund Balance With Treasury,”
January 1995, and any other interim guidance provided by the OUSD(C)/CFO.
The estimated completion date for the corrective actions is December 31, 2005.




                                   11
                    B. Expenditure Account Attributes
                    DFAS Denver did not have adequate internal controls for classifying
                    expenditure accounts as entity or non-entity and by fund type.
                    Specifically, DFAS Denver had to create multiple journal voucher
                    adjustments after fiscal year-end in DDRS-AFS to classify expenditure
                    accounts as entity or non-entity and by fund type. In particular, DFAS
                    Denver made:

                                  •   three journal voucher adjustments to assign the entity
                                      attribute and

                                  •   five journal voucher adjustments to assign the fund type
                                      attribute.4

                    Although the net effect of these journal voucher adjustments to the
                    General Fund, FBWT account was $79.3 million, a potential
                    misclassification error of $1.3 billion (absolute) may occur on the
                    classification of expenditure accounts as entity or non-entity and by fund
                    type. DFAS Denver personnel made the multiple journal voucher
                    adjustments because DoD FMR and the OUSD(C)/CFO interim guidance
                    did not provide adequate guidance for classifying expenditure accounts as
                    entity or non-entity and by fund type. In addition, GAFS-R did not
                    properly capture attributes for classifying expenditure accounts as entity
                    or non-entity and by fund type. As a result, potential misstatements may
                    occur on the financial statements. In addition, auditors were not able to
                    perform a timely review of the General Fund financial statement
                    compilation process; therefore, future audits of the General Fund financial
                    statements may not be completed in the required 45-day timeframe.5


Criteria
            Entity and Non-Entity Attribute. Statement of Federal Financial Accounting
            Standards No. 1, “Accounting for Selected Assets and Liabilities,”
            March 30, 1993, states the following:
                    Entity assets are those assets which the reporting entity has authority to
                    use in its operations. “Non-entity” assets are those assets that are held
                    by an entity but are not available to the entity. … Both entity assets and
                    non-entity assets under an entity’s custody or management should be
                    reported in the entity’s financial statements. Non-entity assets reported
                    in the entity’s financial statements should be segregated from entity
                    assets.



4
    The eight journal voucher adjustments created to assign attributes were unsupported. See finding C for a
     further discussion of why they were unsupported.
5
    November 15 is the annual deadline for the DoD Agency-Wide financial statements. Therefore, General
    Fund FBWT auditors will have less than 45 days from September 30 to November 15 to perform their
    audit work.



                                                       12
     Office of Management and Budget (OMB) Bulletin 01-09, “Form and Content of
     Agency Financial Statements,” September 25, 2001, states: “To the extent that the
     reporting entity maintains fund balances in deposit, suspense, and clearing
     accounts that are not available to finance the entity’s activities, those balances
     should be disclosed as non-entity assets.”

     DoD FMR, Volume 6B, Chapter 10, “Notes to the Financial Statements,”
     January 2002, Section 1004, “Note 2. Non-Entity and Entity Assets,” provides the
     note format for reporting entity and non-entity asset information in the notes to
     the financial statements. Chapter 10 also states that Appendix C provides the
     crosswalk to the Balance Sheet and includes the attributes to separately identify
     entity and non-entity amounts by the U.S. Standard General Ledger for “Note 2.
     Non-Entity and Entity Assets.”

     DoD FMR, Volume 6B, Appendix C, “General Ledger Crosswalk for the Balance
     Sheet Statement,” November 2001, shows that the FBWT account can be reported
     as either entity or non-entity.

     DoD FMR, Volume 6B, Appendix A, “Appropriation and Fund Symbols List by
     Reporting Entity,” November 2001, contains a list of General Fund expenditure
     accounts and classifies them as entity or non-entity. In addition, Appendix A
     classifies clearing accounts and deposit funds as non-entity accounts.

     Fund Type Attribute. OMB Bulletin 01-09, “Form and Content of Agency
     Financial Statements,” September 25, 2001, provides guidance on the content of
     agency financial statements and notes. Specifically, the OMB guidance requires
     that agencies report FBWT in the notes to the financial statements in the
     following categories:

                        •   Appropriated Funds,

                        •   Revolving Funds,

                        •   Trust Funds, and

                        •   Other Fund Types.

     DoD FMR, Volume 6B, Chapter 10, “Notes to the Financial Statements,”
     January 2002, Section 1005, “Note 3. Fund Balance With Treasury,” states:
     “… disclose the assets by fund type (appropriated, revolving, trust, or in the other
     fund type category). …”


Audit Tools for Reviewing Financial Systems
     GAO Guidance. GAO-05-225G, “Checklist for Reviewing Systems under the
     Federal Financial Management Improvement Act,” February 2005, states: “The
     core financial system should provide the capability to support the following fund
     characteristics: fund type, such as general fund, deposit fund, trust fund, special
     fund, revolving fund, or receipt account.” See Appendix H for more information
     on the GAO Checklist.


                                          13
     DFAS Guidance. DFAS created DFAS 7900.4G, “A Guide to Federal
     Requirements for Financial Management Systems,” Version 4.1.2, November
     2004, as a tool to focus management’s attention on the requirements financial
     systems must satisfy. This guide is commonly referred to by DFAS as the “Blue
     Book.” The Blue Book states, “The system must distinguish between entity and
     non-entity assets.” The Blue Book also states, at a minimum, fund type
     characteristics, such as general fund, deposit fund, trust fund, special fund,
     revolving fund, or receipt account, must be supported in accordance with
     Treasury and OMB reporting requirements. In addition, the Blue Book states,
     “The system must provide the capability to automatically generate fiscal yearend
     pre-closing and closing entries as they relate to fund types.” See Appendix H for
     more information on the DFAS Blue Book.


Classifying Expenditure Accounts as Entity or Non-Entity
     DFAS Denver created multiple journal voucher adjustments in DDRS-AFS to
     classify expenditure accounts with entity or non-entity attributes. The journal
     voucher adjustments were necessary to classify General Fund expenditure
     accounts as entity or non-entity for the September 30, 2004, financial statements.
     Specifically, DFAS Denver made three journal voucher adjustments to assign the
     entity attribute. Although the net effect of these journal voucher adjustments to
     the General Fund, FBWT account was $79.3 million, a potential misclassification
     error of $827.9 million (absolute) may occur on the classification of expenditure
     accounts as entity or non-entity as shown in Table 3.

 Table 3. Journal Voucher Adjustments to Classify Expenditure Accounts as Entity or
                                    Non-Entity
   Journal       Entity
   Voucher      Attribute     Debit Amount        Credit Amount   Absolute Amount
 27595         Non-Entity     $ 36,826,072.78            -         $ 36,826,072.78
 27981           Entity        379,972,330.89            -          379,972,330.89
               Non-Entity           -             $337,494,929.15   337,494,929.15
 28073           Entity         36,826,072.78            -           36,826,072.78
               Non-Entity            -              36,826,072.78    36,826,072.78
  Total                       $453,624,476.45     $374,321,001.93  $827,945,478.38


     These multiple journal voucher adjustments were made because of inadequate
     DoD FMR and OUSD(C)/CFO interim guidance and the inability of the GAFS-R
     to properly capture and assign entity or non-entity attributes to expenditure
     accounts. For example, journal voucher 28073 was made to reverse journal
     voucher 27595. None of the journal voucher adjustments were supported with
     proper documentation.




                                         14
Classifying Expenditure Accounts by Fund Type Attribute
         DFAS Denver created multiple journal voucher adjustments in DDRS-AFS to
         classify expenditure accounts by fund type. The journal vouchers were necessary
         to classify the General Fund expenditure account by fund type for the
         September 30, 2004, financial statements. Specifically, DFAS Denver made
         five journal voucher adjustments to assign the fund type attribute. Although the
         net effect of these journal voucher adjustments to the General Fund, FBWT
         account was zero, a potential misclassification error of $422.3 million (absolute)
         may occur on the classification of expenditure accounts by fund type as shown in
         Table 4.

Table 4. Journal Voucher Adjustments to Classify Expenditure Accounts by Fund Type

  Journal            Fund
 Voucher         Type Attribute    Debit Amount           Credit Amount       Absolute Amount
27901          Appropriated Funds        -                $ 63,101,694.87      $ 63,101,694.87
                  Other Funds     $ 53,290,050.33                -               53,290,050.33
                  Trust Funds        9,811,644.54                -                9,811,644.54
28014          Appropriated Funds   63,101,694.87                -               63,101,694.87
                  Other Funds            -                  53,290,050.33        53,290,050.33
                  Trust Funds            -                   9,811,644.54         9,811,644.54
28019          Appropriated Funds        -                  63,101,694.87        63,101,694.87
                  Other Funds       53,290,050.33                -               53,290,050.33
                  Trust Funds        9,811,644.54                -                9,811,644.54
28552          Appropriated Funds      599,707.23                -                  599,707.23
                  Trust Funds            -                     599,707.23           599,707.23
28556          Appropriated Funds   21,238,700.87                -               21,238,700.87
                  Other Funds            -                  21,238,700.87        21,238,700.87
 Total                            $211,143,492.71         $211,143,492.71      $422,286,985.42


         These multiple journal voucher adjustments occurred because of inadequate
         DoD FMR and OUSD(C)/CFO interim guidance and the inability of the GAFS-R
         to properly capture and assign fund type attributes to expenditure accounts. For
         example, journal voucher 27901 was made to assign fund types to expenditure
         accounts. Journal voucher 28014 was made to reverse journal voucher 27901
         because it was incorrect, and journal voucher 28019 was made to assign the
         proper fund types to expenditure accounts. Journal vouchers 28552 and 28556
         were made to correct journal voucher 28019. None of the journal voucher
         adjustments were supported with proper documentation. Finding C explains why
         these journal vouchers were not properly supported.




                                             15
Adequacy of DoD Criteria for Classifying Expenditure
  Accounts as Entity or Non-Entity and by Fund Type
    The DoD FMR and the OUSD(C)/CFO interim guidance did not provide adequate
    guidance for classifying expenditure accounts as entity or non-entity and by fund
    type.

    DoD FMR. The DoD FMR did not adequately reference needed information in
    other parts of the DoD FMR, contained an incomplete list of General Fund
    expenditure accounts, and did not provide guidance on how to classify
    expenditure accounts by fund type. Specifically, the DoD FMR contained the
    following problems:

           Entity and Non-entity. DoD FMR, Volume 6B, Chapter 10, “Notes to
           the Financial Statements,” January 2002, Section 1004, “Note 2.
           Non-Entity and Entity Assets,” states that Appendix C provides the
           crosswalk to the Balance Sheet and includes the attributes to separately
           identify entity and non-entity amounts by the U.S. Standard General
           Ledger. However, DoD FMR, Volume 6B, Appendix C, “General Ledger
           Crosswalk for the Balance Sheet Statement,” November 2001, only states
           that the FBWT account can be reported as either entity or non-entity.
           Specifically, Section 1004 did not reference DoD FMR, Volume 6B,
           Appendix A, “Appropriation and Fund Symbols List by Reporting Entity,”
           November 2001, which contains an incomplete list of General Fund
           expenditure accounts. Specifically, Appendix A did not classify
           13 expenditure accounts as entity or non-entity that were listed on
           Treasury reports for the General Fund as of September 30, 2004. Thus,
           DFAS Denver did not have adequate information to classify
           13 expenditure accounts as entity or non-entity.

           Fund Type. DoD FMR, Volume 6B, Chapter 10, “Notes to the Financial
           Statements,” January 2002, Section 1005, “Note 3. Fund Balance With
           Treasury,” states: “… disclose the assets by fund type (appropriated,
           revolving, trust, or in the other fund type category). …” Specifically, the
           General Fund FBWT account has to be classified as appropriated, trust,
           and other fund type. However, the DoD FMR does not provide any
           guidance to classify expenditure accounts by fund type.

    OUSD(C)/CFO personnel stated that the DoD FMR Volume 6B was in the
    process of being revised and was not being followed. However, OUSD(C)/CFO
    did not issue any interim guidance until after the start of our audit.

    Interim Guidance. Based on our audit work, the OUSD(C)/CFO recognized that
    inadequate guidance existed in the DoD FMR and on April 8, 2005, issued
    interim guidance to DFAS reporting centers. However, this interim guidance is
    inadequate for classifying expenditure accounts as entity or non-entity and by
    fund type.

           Entity and Non-entity. The interim guidance did not classify nine
           expenditure accounts that were listed on Treasury reports for the General
           Fund as of September 30, 2004. The nine expenditure accounts are:



                                        16
           57X1997, 57X1998, 57*6060, 57X6275, 57X6276, 57X6500, 57X6501,
           57F0109, and 57F0152.

           In addition, the interim guidance instructs accountants to classify
           10 clearing accounts as an entity asset. The 10 clearing accounts are:
           57F3845, 57F3875, 57F3875.001, 57F3875.002, 57F3875.003,
           57F3875.004, 57F3875.005, 57F3880, 57F3885, and 57F3885.007.
           However, this guidance conflicts with OMB Bulletin 01-09, “Form and
           Content of Agency Financial Statements,” September 25, 2001, and the
           DoD FMR, Volume 6B, Appendix A, “Appropriation and Fund Symbols
           List by Reporting Entity,” November 2001, which instructs accountants to
           classify expenditure clearing accounts as non-entity assets.

           Fund Type. The interim guidance classifies receipt accounts as “Other
           Fund Types.” Receipt accounts should not be included as part of FBWT
           (as discussed in finding D).

    If the DoD FMR had adequate guidance, this would reduce the risk of potential
    misstatements and would assist auditors in performing a timely review of the
    General Fund FBWT account.


General Accounting and Finance System-Rehost Limitation
    GAFS-R did not properly capture attributes for classifying expenditure accounts
    as entity or non-entity and by fund type. Specifically, DFAS Denver personnel
    stated that the GAFS-R captures all expenditure accounts as “Appropriated” fund
    types. However, GAO-05-225G, “Checklist for Reviewing Systems under the
    Federal Financial Management Improvement Act,” February 2005, and the Blue
    Book recommend that the core financial system provide the capability to capture
    the following fund types: general fund, deposit fund, trust fund, special fund,
    revolving fund, or receipt account. In addition, the Blue Book states, “The
    system must distinguish between entity and non-entity assets.”

    If the GAFS-R properly captured these attributes and had the capability to
    automatically generate the required year-end fund type entries, DFAS Denver
    would not have to make multiple journal voucher adjustments in DDRS-AFS after
    the fiscal year-end. This would reduce the risk of potential misstatements and
    would assist auditors in performing a timely review of the General Fund FBWT
    account.


Conclusion
    OUSD(C)/CFO needs to improve its guidance for classifying expenditure
    accounts as entity or non-entity and by fund type. In addition, DFAS Denver
    needs to modify the GAFS-R to properly capture the attributes for classifying
    expenditure accounts as entity or non-entity and by fund type. Classifying
    expenditure accounts with the proper attributes is necessary for the proper
    disclosure of the General Fund FBWT account. The DoD FMR requires that
    FBWT be segregated between entity and non-entity on the Consolidated Balance


                                       17
    Sheet and in Note 2, “Non-Entity and Entity Assets.” Also, Note 3, “Fund
    Balance With Treasury,” requires the FBWT to be classified by fund type.
    Furthermore, creating multiple journal vouchers may lead to misstatements. It
    also requires a significant amount of time and effort by DFAS Denver personnel
    to process the journal voucher adjustments. This, in turn, extends the time it takes
    DFAS Denver to produce auditable financial statements.


Recommendations, Management Comments, and Audit
  Response
    B.1. We recommend that the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer provide guidance on classifying
    expenditure accounts as entity or non-entity and by fund type by revising:

            a. DoD Regulation 7000.14-R, Financial Management Regulation,
    Volume 6B, Chapter 10, “Notes to the Financial Statements,” January 2002,
    to reference Volume 6B, Appendix A, “Appropriation and Fund Symbols
    List by Reporting Entity,” November 2001.

           b. DoD Regulation 7000.14-R, Financial Management Regulation,
    Volume 6B, Appendix A, “Appropriation and Fund Symbols List by
    Reporting Entity,” November 2001, to include all DoD appropriation and
    fund symbols by reporting entity.

    Management Comments. The Deputy Chief Financial Officer concurred. The
    Deputy Chief Financial Officer stated that Volume 6B, Appendix A will be
    deleted. Information in Appendix A will be included in quarterly financial
    statement guidance posted on the OUSD(C)/CFO website and on the DFAS
    e-portal, including appropriations and fund symbols by reporting entity. In
    addition, Volume 6B, Chapter 10, will refer the reader to the OUSD(C)/CFO
    website.

            c. Interim guidance to classify expenditure clearing accounts as non-
    entity in accordance with the Office of Management and Budget
    Bulletin 01-09, “Form and Content of Agency Financial Statements,”
    September 25, 2001, and DoD Regulation 7000.14-R, Financial Management
    Regulation, Volume 6B, Appendix A, “Appropriation and Fund Symbols List
    by Reporting Entity,” November 2001.

    Management Comments. The Deputy Chief Financial Officer nonconcurred.
    The Deputy Chief Financial Officer indicated that OMB Circular A-136 and
    Bulletin 01-09 both state, “To the extent that the reporting entity maintains fund
    balance in deposit, suspense, and clearing accounts that are not available to
    finance the entity’s activities, those balances should be disclosed as nonentity
    assets.” The Deputy Chief Financial Officer also stated that the funds currently in
    DoD clearing accounts are available to finance the entity’s activities; therefore,
    they are entity accounts.

    Audit Response. The Deputy Chief Financial Officer comments are not
    responsive. The Deputy Chief Financial Officer acknowledged that OMB
    Bulletin 01-09, “Form and Content of Agency Financial Statements,”


                                        18
September 25, 2001, and OMB Circular A-136, “Financial Reporting
Requirements,” August 23, 2005, both state deposit, suspense, and clearing
accounts that are not available to finance an entity’s activities should be disclosed
as non-entity assets. In addition, DoD FMR, Volume 6B, Appendix A,
“Appropriation and Fund Symbols List by Reporting Entity,” November 2001,
instructs accountants to classify expenditure clearing accounts as non-entity
assets. However, the OUSD(C)/CFO interim guidance conflicts with OMB and
DoD guidance. Furthermore, this interim guidance changed OMB and DoD
policy for reporting expenditure clearing accounts as non-entity assets.
Therefore, we request that the Deputy Chief Financial Officer reconsider her
position, provide additional comments, and provide the estimated completion date
on the final report.

       d. DoD Regulation 7000.14-R, Financial Management Regulation,
Volume 6B, Chapter 10, “Notes to the Financial Statements,” January 2002,
Section 1005, “Note 3 Fund Balance With Treasury,” to provide guidance on
how to classify expenditure accounts by fund type.

      e. DoD Regulation 7000.14-R, Financial Management Regulation,
Volume 6B, Appendix A, “Appropriation and Fund Symbols List by
Reporting Entity,” November 2001, on a periodic basis, at least annually.

Management Comments. The Deputy Chief Financial Officer concurred. The
Deputy Chief Financial Officer stated that Volume 6B, Appendix A will be
deleted. Information in Appendix A is included in the quarterly financial
statement guidance posted on the OUSD(C)/CFO website and on the DFAS
e-portal, including appropriations and fund symbols by reporting entity.

Audit Response. Although the Deputy Chief Financial Officer concurred with
the recommendations, we consider the comments not responsive. The Deputy
Chief Financial Officer did not address providing guidance on how to classify
expenditure accounts by fund type or provide a timeframe for updating the list of
appropriations and fund symbols by reporting entity. We request that the Deputy
Chief Financial Officer provide additional comments on the final report. We also
request the Deputy Chief Financial Officer provide the estimated completion date
on the final report.

B.2 We recommend that the Director of Defense Finance and Accounting
Service Denver modify the General Accounting and Finance System-Rehost
to properly capture and categorize expenditure accounts as:

       a. Entity or non-entity.

Management Comments. The Director of DFAS Headquarters concurred. The
Director stated that the posting logic in GAFS-R was modified to properly
categorize expenditure and receipt accounts with the proper entity or non-entity
attribute. The estimated completion date for the corrective actions was
November 30, 2005.

       b. The following fund types:

               (1) General Fund



                                     19
               (2) Deposit Fund

               (3) Trust Fund

               (4) Special Fund

               (5) Revolving Fund

               (6) Clearing Fund

Management Comments. The Director of DFAS Headquarters nonconcurred.
The Director stated that the fund types are not required attributes and are in
conflict with DoD FMR, Volume 6B, Chapter 10, Section 1005, “Note 3. Fund
Balance With Treasury,” January 2002. Section 1005 requires the FBWT account
be disclosed by the following fund types: appropriated, revolving, trust, or other.

Audit Response. The Director of DFAS Headquarters comments are not
responsive. We agree that DoD Regulation 7000.14-R, FMR, Volume 6B,
Chapter 10, Section 1005, “Note 3. Fund Balance With Treasury,” January 2002,
requires that the FBWT account be disclosed by the following fund types:
appropriated, revolving, trust, or other. However, we recommended that the
GAFS-R be modified to properly capture and categorize expenditure accounts by
fund type. Furthermore, GAO-05-225G, “Checklist for Reviewing Systems under
the Federal Financial Management Improvement Act,” February 2005, requires
that financial systems provide the capability to capture the fund types we
recommended. We request that the Director of DFAS Headquarters reconsider
his position on the recommendations and provide comments on the final report.




                                    20
            C. DDRS-AFS Journal Voucher
               Adjustments
            DFAS Denver did not adequately support any of the 14 journal voucher
            adjustments created in DDRS-AFS to adjust the September 30, 2004,
            General Fund FBWT account by $1.5 billion (absolute). This occurred
            because the DoD FMR did not establish adequate criteria for defining the
            information required to support journal voucher adjustments.
            Additionally, DFAS Denver did not have standard operating procedures to
            define what information was required to support journal voucher
            adjustments. As a result, potential misstatements may occur on the
            financial statements.


Criteria for Journal Vouchers
     DoD FMR, Volume 6A, Chapter 2, “Financial Reports Roles and
     Responsibilities,” March 2002, states the following:
            Proper documentation, in either hard copy or electronic form, is
            necessary to support all journal voucher entries. This documentation
            shall be sufficient for the approving official and others, such as
            auditors, to understand clearly the reason for preparing the journal
            voucher and to be able to tell it is proper and accurate.

     Additionally, the DoD FMR states the following:
            Adjustments made by DFAS or by DFAS Customers shall be
            supported by written documentation which is sufficiently detailed so
            that it provides audit trail to the source transaction(s) that require the
            adjustments. This documentation shall include the rationale and
            justification for the adjustment, detailed numbers and dollar amounts of
            errors or conditions that are related to the transaction(s) or record(s)
            that are proposed for adjustments, the date of the adjustment, and the
            name and position of the individual approving the adjustment.



DDRS-AFS Journal Vouchers
     DFAS Denver did not adequately support any of the 14 journal voucher
     adjustments created in DDRS-AFS to adjust the September 30, 2004, General
     Fund FBWT account by $1.5 billion (absolute). Of the 14 unsupported journal
     voucher adjustments:

                     •   7 did not provide an adequate explanation of the reason for the
                         journal voucher adjustment,

                     •   13 did not provide applicable criteria to support the
                         explanation for the journal voucher adjustment,



                                               21
                    •   3 did not provide a clear calculation of the dollar amount of the
                        journal voucher adjustment, and

                    •   13 did not provide the specific expenditure or receipt accounts
                        in the journal voucher that were being affected by the journal
                        voucher adjustment.

      Table 5 summarizes reasons the 14 journal voucher adjustments created in
      DDRS-AFS were not supported.

  Table 5. Unsupported September 30, 2004, General Fund, DDRS-AFS Journal
                       Vouchers for the FBWT account
                                                                   Did Not
                                                                 Provide the
                                     Did Not                       Specific
                                     Provide                     Expenditure
Journal     Did Not Provide an     Applicable   Did Not Provide   or Receipt
Voucher    Adequate Explanation      Criteria  Clear Calculation  Accounts
 27901              X                   X                             X
 28014              X                   X                             X
 28019              X                   X                             X
 28552                                  X
 28556                                  X                             X
 27595                                  X                             X
 28073                                  X                             X
 27594              X                   X             X               X
 27910                                                X               X
 27825              X                   X                             X
 27827              X                   X                             X
 28334                                  X                             X
 28335                                  X                             X
 27981              X                   X             X               X

      The following four journal voucher adjustments (JV 28014, 28552, 28556, and
      28073) were made to reverse journal voucher adjustments: JV 27901, 28019,
      28019, and 27595, respectively. Therefore, DFAS Denver recognized the journal
      voucher adjustments were incorrect.


Adequacy of Criteria
      The DoD FMR did not establish adequate criteria for defining the information
      required to support journal voucher adjustments. Additionally, DFAS Denver did
      not have any standard operating procedures to define what information was
      required to support journal voucher adjustments. DFAS Denver only had draft
      standard operating procedures to define what information was required to support
      the adjustments.



                                         22
    DoD Financial Management Regulations. The DoD FMR did not require
    journal voucher adjustment supporting documentation to include applicable
    criteria supporting the rationale for journal voucher adjustments. Additionally,
    the DoD FMR did not require the supporting documentation to include the
    specific expenditure or receipt accounts affected by journal voucher adjustments.
    Furthermore, the DoD FMR did not require documentation showing a clear
    calculation of the dollar amount for journal voucher adjustments.

    Draft Standard Operating Procedures. DFAS Denver provided us the
    following draft Standard Operating Procedure (SOP), “Journal Voucher Guidance
    for General Funds,” December 21, 2004, which defines journal vouchers as
    accounting and/or adjustment entries made to the General Fund general ledger
    accounts. The SOP also states that journal vouchers are processed manually or
    mechanically through GAFS-R. Additionally, proper preparation of journal
    vouchers is important to ensure that documentation for detailed audit trail exists
    and that the journal voucher is accurately recorded as a financial event.

    However, the draft SOP does not require journal voucher adjustment supporting
    documentation to include criteria, when applicable, to support the rationale for
    journal voucher adjustments. Additionally, the draft SOP does not require the
    supporting documentation to include the specific expenditure or receipt accounts
    affected by journal voucher adjustments. Furthermore, the draft SOP states that
    these procedures only apply to journal voucher adjustments created in GAFS-R.
    The draft SOP does not apply to journal voucher adjustments created in DDRS-B
    and DDRS-AFS. Lastly, the draft SOP does not require documentation showing a
    clear calculation of the dollar amount for journal voucher adjustments.


Conclusion
    Unsupported journal voucher adjustments may lead to potential misstatements on
    the General Fund financial statements and limit the ability of supervisors and
    auditors to substantiate the validity of the journal voucher adjustments.
    Additionally, we could not determine whether potential misstatements existed in
    the September 30, 2004, General Fund FBWT account, and we were not able to
    perform a timely review of the General Fund financial statement compilation
    process.


Recommendations and Management Comments
    C.1. We recommend that the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer enhance journal voucher
    documentation requirements by revising DoD Regulation 7000.14-R,
    Financial Management Regulation, Volume 6A, Chapter 2, “Financial
    Reports Roles and Responsibilities,” to require the Defense Finance and
    Accounting Service to provide:

          a. Applicable criteria to support the rationale for the journal
    voucher adjustment on the journal voucher or supporting documentation.



                                        23
      b. Specific expenditure or receipt accounts affected by the journal
voucher adjustment on the journal voucher or supporting documentation.

      c. Calculation of the dollar amount of the journal voucher
adjustment and references to supporting documentation.

Management Comments. The Deputy Chief Financial Officer concurred. The
Deputy Chief Financial Officer stated that there is quarterly financial statement
guidance on the OUSD(C)/CFO website with this requirement. In addition, the
Deputy Chief Financial Officer stated that the requirement will be added to the
DoD FMR. The Deputy Chief Financial Officer also stated that the DoD FMR
will be revised to state that specific expenditure or receipt accounts must be
included in the support documentation at the time the FBWT journal voucher is
created. Furthermore, the Deputy Chief Financial Officer stated that the DoD
FMR will be revised to include the disclosure of the calculation of the dollar
amount of the adjustment within the journal voucher description or where this
information can be found.

C.2. We recommend that the Director of Defense Finance and Accounting
Service Denver finalize their draft Standard Operating Procedures, “Journal
Voucher Guidance for General Funds,” December 21, 2004, and make the
procedures applicable to journal voucher adjustments in the Defense
Departmental Reporting System-Budgetary and Defense Departmental
Reporting System-Audited Financial Statements. In addition, include the
following requirements to provide:

      a. Applicable criteria to support the rationale for the journal
voucher adjustment on the journal voucher or supporting documentation.

      b. Specific expenditure or receipt accounts affected by the journal
voucher adjustment on the journal voucher or supporting documentation.

      c. Calculation of the dollar amount of the journal voucher
adjustment and references to supporting documentation.

Management Comments. The Director of DFAS Headquarters concurred. The
Director stated that the finding was not material, and that journal voucher
narrative explanations can always be improved. However, the draft standard
operating procedures will be enhanced and finalized to include the following
requirements: applicable criteria to support the rationale for the journal voucher
adjustments on the journal voucher or supporting documentation, specific
expenditure or receipt accounts affected by the journal voucher adjustment on the
journal voucher or supporting documentation, and the calculation of the dollar
amount of the journal voucher adjustment and references to supporting
documentation. The estimated completion date was November 30, 2005.




                                    24
            D. Air Force, General Fund, Note 3,
               “Fund Balance With Treasury”
            DFAS Denver incorrectly:

                   •   included $6.9 million of Air Force transfers to the Department
                       of Transportation,

                   •   excluded $16.1 million of transfers to the Air Force from the
                       OMB and the Department of Agriculture, and

                   •   included $152 million in unavailable receipt accounts in
                       Line 2.A., “Fund Balance per Treasury.”

            The overstatement occurred because DoD FMR did not specify which
            expenditure and receipt accounts should be included in the amount for
            Line 2.A., “Fund Balance per Treasury,” and DFAS Denver did not have
            standard operating procedures for calculating the amount for Line 2.A.,
            “Fund Balance per Treasury.” Additionally, OMB guidance conflicts with
            Federal Accounting Standards Advisory Board (FASAB) accounting
            standards for reporting transfers and Treasury guidance is unclear. As a
            result, DFAS Denver overstated the amount for Line 2.A., “Fund Balance
            per Treasury,” in Note 3, “Fund Balance With Treasury,” by
            $142.8 million on the September 30, 2004, General Fund financial
            statements. Furthermore, DFAS Denver is not reporting the correct
            reconciling amount in Note 3, “Fund Balance With Treasury.”


Criteria for Reporting Transfers and Receipts, and Fund
  Balance With Treasury Note Disclosure Requirements
     The American Institute of Certified Public Accountants designated the FASAB as
     the body that establishes accounting principles for Federal entities. FASAB
     establishes accounting principles through the Statement of Federal Financial
     Accounting Standards (SFFAS). Additionally, the DoD FMR, Volume 1,
     Chapter 8, “Hierarchy of Accounting Standards,” May 1998, sets forth the
     sequence of accounting standards that must be followed by DoD and its
     Components. Appendix I discusses the hierarchy of accounting standards.

     Federal Accounting Standards Advisory Board. SFFAS No. 1, “Accounting
     for Selected Assets and Liabilities,” March 30, 1993, defines FBWT as, “… the
     aggregate amount of funds in the entity’s accounts with Treasury for which the
     entity is authorized to make expenditures and pay liabilities.”

            Transfers. SFFAS No. 1 states that an entity’s FBWT account is
            increased by receiving transfers from other agencies. An entity’s FBWT
            is reduced by transfers to other agencies or the Treasury.




                                        25
       Receipts. SFFAS No. 1 states an entity’s FBWT account is increased by
       “… amounts collected and credited to appropriation or fund accounts that
       the entity is authorized to spend or use to offset its expenditures.”

Office of Management and Budget. OMB Circular No. A-11, “Preparation,
Submission, and Execution of the Budget,” Section 20, “Terms and Concepts,”
July 2004, discusses transfers of budgetary resources. Specifically, the OMB
Circular states that when a transfer is made from budgetary resources from one
purpose to another, the parent (transferor of the appropriation) reports a transfer
out. The child (recipient of the appropriation transfer) reports a transfer in.
However, when a transfer is made to carry out the purposes of the parent, the
activity is reported in the parent’s financial statements.

OMB Bulletin 01-09, “Form and Content of Agency Financial Statements,”
September 25, 2001, provides guidance on the content of agency financial
statements and notes. Specifically, the OMB Bulletin requires agencies in Note 3,
“Fund Balance With Treasury,” to explain any discrepancies between FBWT, as
reflected in the entity’s general ledger, and the balance in the Treasury accounts.
Disclose any other information necessary for understanding the nature of FBWT.

Treasury Financial Manual. TFM, Volume 1, Part 2, Chapter 2000, “Warrant
and Nonexpenditure Transfer (NET) Transactions,” December 15, 2004, defines a
nonexpenditure transfer transaction as “A transaction that does not represent
payment for goods and services but serves only to adjust amounts available in
accounts.”

TFM, Volume 1, Part 2, Chapter 4700, “Agency Reporting Requirements for the
Financial Report of the U.S. Government,” May 28, 2004, states that the parent
should report the activity in its financial statements, unless the allocation transfer
is material to the child’s financial statements. If the allocation transfer is material
to the child’s financial statements, the child should report the activity relating to
the allocation in all of its financial statements, except the Statement of Budgetary
Resources. In this case, the parent should continue to report the appropriation and
the related budgetary activity in its Statement of Budgetary Resources. It is the
responsibility of the parent to ensure that the reporting to Treasury is consistent
with the presentation in the financial statements.

DoD Financial Management Regulations. DoD FMR, Volume 3, “Budget
Execution-Availability and Use of Budgetary Resources,” Chapter 13, “Receipt
and Distribution of Budgetary Resources,” December 1996, prescribes the
standards for recording distribution of budgetary resources in Department-level
accounts. The DoD FMR defines appropriation transfers as distributions of one
agency’s budgetary resources to another agency. Once the appropriation transfer
is complete, the parent no longer has budgetary and proprietary control of the
funds. Budgetary and proprietary responsibility now lies with the child.

Fund Balance With Treasury Disclosure Requirements. DoD FMR,
Volume 6B, “Form and Content of the Department of Defense Audited Financial
Statements,” Chapter 10, “Notes to the Financial Statements,” January 2002,
provides guidance on the presentation of Note 3, “Fund Balance With Treasury.”
Specifically, the DoD FMR illustrates the format for the presentation of Note 3,
“Fund Balance With Treasury,” as demonstrated in Table 6.



                                      26
                  Table 6. DoD FMR Sample Format for Note 3
      Note 3. Fund Balance With Treasury
      As of September 30,                    Current FY     Prior FY
      1. Fund Balances:
         A. Appropriated Funds                     $XXX         $XXX
         B. Revolving Funds                         XXX           XXX
         C. Trust Funds                             XXX           XXX
         D. Other Fund Types                        XXX           XXX
         E. Total Fund Balances                    $XXX         $XXX

      2. Fund Balance Per Treasury Versus
      Agency:
         A. Fund Balance per Treasury                    $XXX           $XXX
         B. Fund Balance per [Reporting Entity]           XXX            XXX
         C. Reconciling Amount                           $XXX           $XXX

      3. Explanation of Reconciliation Amount:

      4. Other Information Related to FBWT:

    DoD FMR requires the following discussion for Lines 3 and 4 of Note 3, “Fund
    Balance With Treasury:”

          •   Line 3 should explain the cause of any reconciling amounts.
              Discrepancies caused by errors and timing difference should add up to
              the reconciling amount reported on line 2.C.

          •   Line 4 should explain any material fluctuations (greater than
              10 percent) in the entity’s FBWT amount from the prior period, and
              disclose any instances where the entity does not meet accounting
              standards.


Air Force, General Fund, Note 3, “Fund Balance With
Treasury,” Line 2.A., Fund Balance per Treasury
    DFAS Denver overstated the amount for Line 2.A., “Fund Balance per Treasury,”
    in Note 3, “Fund Balance With Treasury,” by $142.8 million on the
    September 30, 2004, General Fund financial statements. Specifically, DFAS
    Denver, incorrectly:

          •   included $6.9 million of Air Force transfers to the Department of
              Transportation in expenditure accounts 6957*3300 and 6957*3400,

          •   excluded $16.1 million of transfers to the Air Force from the OMB and
              the Department of Agriculture in expenditure accounts 5711*1081,
              5711*1082, 5711*1088, and 5711*1105, and



                                      27
           •   included $152 million in unavailable receipt accounts.

     DFAS Denver used the following methodology to calculate the amount for
     Line 2.A., “Fund Balance per Treasury,” of Note 3, “FBWT.” DFAS Denver:

           •   Included $61,355 million from the FMS 6654, “Undisbursed
               Appropriation Account Trial Balance,” for the General Fund.

           •   Included $6.9 million from expenditure accounts 6957*3300 and
               6957*3400. These expenditure accounts represent funds that were
               transferred from the General Fund to the Department of Transportation.

           •   Excluded $16.1 million from expenditure accounts 5711*1081,
               5711*1082, 5711*1088, and 5712*1105. These expenditure accounts
               represent funds that were transferred to the General Fund from OMB
               and the Department of Agriculture.

           •   Included $152 million from the FMS 6655, “Report of Unavailable
               Receipt Transactions,” for the General Fund.

     This calculation resulted in an amount of $61,497.8 million reported in Line 2.A.,
     “Fund Balance per Treasury,” in Note 3, “Fund Balance With Treasury,” on the
     September 30, 2004, General Fund financial statements. DFAS Denver, by
     including the appropriation transfer out ($6.9 million) and unavailable receipt
     accounts ($152 million), and excluding the transfer in ($16.1 million) for their
     calculation of Line 2.A., “Fund Balance per Treasury,” overstated the amount by
     $142.8 million.


Adequacy of Criteria for Reporting Line 2.A., “Fund Balance
per Treasury”
     The DoD FMR did not specify what expenditure and receipt accounts should be
     included in the amount for Line 2.A., “Fund Balance per Treasury.” Specifically,
     the DoD FMR did not state whether the parent or child should report the activity
     from transfers reported in expenditure accounts in their financial statements.
     Also, the DoD FMR did not state that receipt accounts should not be included in
     the amount for Line 2.A., “Fund Balance per Treasury.” In addition, DFAS
     Denver did not have standard operating procedures for calculating the amount for
     Line 2.A., “Fund Balance per Treasury.”

     Criteria for Reporting Transfers. OMB guidance conflicts with FASAB
     accounting standards for reporting transfers and Treasury guidance is unclear.
     The following paragraph summarizes the FASAB accounting standard for
     reporting transfers in the FBWT account. The subsequent paragraphs discuss
     OMB’s conflicting guidance and Treasury’s unclear guidance.

            Financial Accounting Standards Advisory Board Criteria. FASAB
            states that an entity’s FBWT account is increased by receiving transfers
            from other agencies. An entity’s FBWT is reduced by transfers to other
            entities or the Treasury. In other words, the parent would report a transfer



                                         28
              out, and the child would report a transfer in and report the activity in their
              financial statements.

              Office of Management and Budget Criteria. OMB states that the nature
              of the transfer determines whether the parent or child reports the activity
              in their financial statements. Specifically, OMB states that when a
              transfer is made of budgetary resources from one purpose to another, the
              parent reports a transfer out and the child reports a transfer in. Thus, the
              child would report the activity in their financial statements. However,
              when a transfer is made to carry out the purposes of the parent, the activity
              is reported in the parent financial statements. OMB guidance contradicts
              FASAB accounting standards because the nature of the transaction
              determines whether the parent or child reports the transfer activity.

              Treasury Financial Manual Criteria. TFM guidance is unclear because
              it uses the terms transfer and allocation interchangeably. However, OMB
              defines transfers and allocations as follows:

                  •   A transfer reduces budgetary resources (budget authority and
                      unobligated balances) in one account and increases them in
                      another by the same amount.

                  •   An allocation is a legal delegation by one agency of its authority to
                      obligate budget authority and outlay funds to another agency.

              TFM guidance may conflict with FASAB accounting standards if
              Chapter 4700 is providing guidance for reporting transfers. TFM states
              that the parent should report the activity in its financial statements, unless
              the transfer is material to the child’s financial statements. If the transfer is
              material to the child’s financial statements, the child should report the
              activity relating to the transfer in all of its financial statements, except the
              Statement of Budgetary Resources. TFM contradicts FASAB accounting
              standards because the materiality of the transfer to the child determines
              who reports the transfer activity.

              Table 7 summarizes the criteria for reporting transfer activity on agency
              financial statements.

 Table 7. Criteria for Reporting Transfer Activity on an Agency’s Financial Statements
        SFFAS                          OMB                                TFM
The child reports the The nature of the transfer       The parent reports the transfer
transfer activity in its determines whether the parent activity in its financial statements,
financial statements.    or child reports the transfer unless the transfer is material to the
                         activity in their financial   child’s financial statements.
                         statements.


              DFAS Denver should not have included the $6.9 million of Air Force
              appropriations transferred to the Department of Transportation and should
              not have excluded $16.1 million of appropriations transferred to the Air
              Force from the OMB and the Department of Agriculture.



                                            29
    Criteria for Reporting Receipt Accounts. SFFAS No. 1 defines FBWT as the
    balance with Treasury for which the entity is authorized to make expenditures and
    pay liabilities. Thus, DFAS Denver should not have included the $152 million
    from U.S. Treasury FMS 6655 “Report of Unavailable Receipt Transactions,” in
    Line 2.A., “Fund Balance per Treasury,” because these receipts are not available
    for expenditures and payment of liabilities of the General Fund. Additionally, if
    DFAS Denver had available receipt amounts in FMS 6655, “Receipt Account
    Trial Balance,” or FMS 6655, “Receipt Account Ledger,” these amounts would
    not be included in Line 2.A., “Fund Balance per Treasury,” because these receipts
    would have already been made available to General Fund by Treasury through an
    invisible warrant. Specifically, Treasury transfers funds from available receipt
    accounts to expenditure accounts through an invisible warrant.


    Hierarchy of Accounting Standards. DoD FMR, Volume 1, Chapter 8,
    “Hierarchy of Accounting Standards,” May 1998, sets forth the accounting
    standards that shall be followed by Federal agencies, including DoD. Chapter 8
    states that approved SFFASs comprise Federal generally accepted accounting
    principles and must be followed by DoD and each DoD Component.
    Additionally, DoD and its Components must adhere to the hierarchy of Federal
    generally accepted accounting principles in the order of precedence listed in
    Chapter 8. SFFASs are the first in the order of precedence listed in Chapter 8.
    Therefore, SSFAS No. 1 is the controlling guidance in determining which
    expenditure and receipt accounts should be included in the amount for Line 2.A.,
    “Fund Balance per Treasury.”


Conclusion
    OUSD(C)/CFO needs to improve its guidance in the DoD FMR. In addition,
    DFAS Denver needs to develop standard operating procedures for identifying the
    expenditure and receipt accounts that should be used in the calculation of
    Line 2.A., “Fund Balance per Treasury.” Furthermore, the OUSD(C)/CFO needs
    to coordinate with OMB to revise the OMB guidance that conflicts with FASAB
    SFFAS No. 1 for reporting appropriation transfers.

    The proper reporting of appropriation transfers is not only necessary for DoD and
    its Component financial statements; it is also necessary for other Federal
    agencies. The existing conflicting guidance may cause other Federal agencies to
    incorrectly report their reconciling amount in Note 3, “Fund Balance With
    Treasury,” and not properly reconcile their FBWT account. There is no impact on
    the Federal Government consolidated financial statements because FBWT is not
    reported on these financial statements. According to SFFAS No. 1,
           From the reporting agency’s perspective, a fund balance with Treasury
           is an asset because it represents the entity’s claim to the federal
           government’s resources. However, from the perspective of the federal
           government as a whole, it is not an asset; and while it represents a
           commitment to make resources available to federal departments,
           agencies, programs, and other entities, it is not a liability.




                                            30
Recommendations, Management Comments, and Audit
  Response
    D.1. We recommend that the Office of the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer:

           a. Coordinate with the Office of Management and Budget to revise
    OMB Circular No. A-11, “Preparation, Submission, and Execution of the
    Budget,” Section 20, “Terms and Concepts,” July 2004, to require the
    recipient of the transfer to report the financial activity in their records and
    financial statements.

           b. Coordinate with the U.S. Treasury to revise TFM, Volume 1,
    Part 2, Chapter 4700, “Agency Reporting Requirements for the Financial
    Report of the U.S. Government,” to:

                   (1) Distinguish between transfers and allocations.

                    (2) Require the recipient of the transfer to report the financial
    activity in their records and financial statements.

    Management Comments. The Deputy Chief Financial Officer concurred. The
    Deputy Chief Financial Officer stated that the Form and Content Subcommittee of
    the Chief Financial Office Council has formed a workgroup whose goal is to
    investigate and propose a revised accounting treatment for allocation transfers. A
    member of the OUSD(C)/CFO staff chairs the workgroup.

    Audit Response. Although the Deputy Chief Financial Officer concurred with
    the recommendations, we consider the comments partially responsive. The
    Deputy Chief Financial Officer response is unclear as to whether the Department
    will propose and coordinate accounting policy with OMB to require recipients of
    appropriation transfers report the financial activity in their records and financial
    statements. Additionally, the Deputy Chief Financial Officer did not state
    whether the Department will coordinate with Treasury to distinguish between
    transfers and allocation of funds, and propose and coordinate accounting policy
    with Treasury to require that recipients of appropriation transfers report the
    financial activity in their records and financial statements. We request the Deputy
    Chief Financial Officer provide additional comments and an estimated completion
    date on the final report.

          c. Revise DoD Regulation 7000.14-R, DoD Financial Management
    Regulation, Volume 6B, “Format of DoD Audited Financial Statements,”
    Chapter 10, “Notes to the Financial Statements,” January 2002, to:

                  (1) Establish policy for identifying the expenditure and receipt
    accounts that should be used in the calculation of Line 2.A., “Fund Balance
    per Treasury,” of Note 3, “Fund Balance With Treasury.”

                  (2) Incorporate the policy for identifying the expenditure and
    receipt accounts that should be used in the calculation of Line 2.A., “Fund
    Balance per Treasury,” of Note 3, “Fund Balance With Treasury.”



                                        31
Management Comments. The Deputy Chief Financial Officer concurred. The
Deputy Chief Financial Officer stated that because the expenditure and receipt
accounts list changes, the information will be included in quarterly guidance
posted on the OUSD(C)/CFO website and the DFAS e-portal. In addition, the
DoD FMR will refer the reader to the OUSD(C)/CFO website.

Audit Response. The Deputy Chief Financial Officer comments are not
responsive. The Deputy Chief Financial Officer response did not address
recommendations to establish and incorporate policy that describes the
methodologies used to identify accounts required to be reported on Line 2.A.,
“Fund Balance per Treasury,” of Note 3, “Fund Balance With Treasury.” We
request the Deputy Chief Financial Officer provide additional comments and an
estimated completion date on the final report.

D.2. We recommend that the Director of Defense Finance and Accounting
Service Denver establish standard operating procedures for identifying the
expenditure and receipt accounts that should be used in the calculation of
Line 2.A., “Fund Balance per Treasury,” of Note 3, “Fund Balance With
Treasury.”

Management Comments. The Director of DFAS Headquarters concurred. The
Director stated the finding was not material and that the OUSD(C)/CFO has
clarified reporting requirements for Line 2.A., “Fund Balance per Treasury,” of
Note 3, “Fund Balance With Treasury.” Based on this revised guidance, DFAS
will establish standard operating procedures to identify the expenditure and
receipt accounts that should be used in the calculation of Line 2.A., “Fund
Balance per Treasury.” The estimated completion date for these corrective
actions was November 30, 2005.




                                   32
                    E. DFAS Denver Management Control
                       Program for FBWT
                    The DFAS Denver Management Control Program for FBWT was
                    ineffective and did not identify and report material weaknesses for FBWT
                    in their FY 2004 Annual Statement of Assurance.6 This occurred because
                    DFAS Denver did not adequately perform a general assessment of the
                    internal controls for the General Fund FBWT account. Specifically, the
                    DFAS Denver Management Control Program for FBWT did not establish
                    specific control objectives, potential risks, and control techniques within
                    their assessable units that would have prevented the material weaknesses
                    from occurring. Furthermore, DFAS Denver’s test of controls for
                    reconciling the General Fund FBWT account was inadequate. As a result,
                    DFAS Denver cannot provide reasonable assurance that internal controls
                    for the General Fund FBWT account are in place and operating
                    effectively.


Criteria for Management Control Programs
           Government Accountability Office. GAO/AIMD-00-21.3.1, “Standards for
           Internal Control in the Federal Government,” November 1999, (The Green Book)
           states,
                    The Federal Managers’ Financial Integrity Act (FMFIA) of 1982
                    requires GAO to issue standards for internal control in government.
                    The standards provide the overall framework for establishing and
                    maintaining internal control and for identifying and addressing major
                    performance and management challenges and areas at greatest risk of
                    fraud, waste, abuse, and mismanagement.

           The five standards for internal control are: control environment, risk assessment,
           control activities, information and communications, and monitoring. These
           standards define the minimum level of quality acceptable for internal control in
           government and provide the basis against which internal control is to be
           evaluated.

           Office of Management and Budget. OMB Circular A-123, “Management
           Accountability and Control,” revised June 21, 19957, provides guidance to
           Federal managers on improving the accountability and effectiveness of Federal
           programs and operations by establishing, assessing, correcting, and reporting on
           management controls. The OMB Circular states:
                    Management controls are the organization, policies, and procedures
                    used by agencies to reasonably ensure that programs achieve their

6
    See the Management Control Program Review section for a discussion of the DFAS Denver Management
     Control Program for findings A, B, C, and D.
7
    The OMB recently issued a revised OMB Circular A-123, “Management’s Responsibility for Internal
     Control,” December 21, 2004; however, this revised guidance does not take effect until FY 2006. In the
     interim, the previous guidance should be followed.



                                                      33
           intended results; resources are used consistent with agency mission;
           programs and resources are protected from waste, fraud, and
           mismanagement; laws and regulations are followed; and reliable and
           timely information is obtained, maintained, reported, and used for
           decision making.

    DoD Directive. DoD Directive 5010.38, “Management Control (MC) Program,”
    August 26, 1996, implements GAO and OMB guidance that is required by the
    FMFIA of 1982. The DoD Directive requires DoD Components to implement a
    comprehensive strategy for management controls that provides reasonable
    assurance that “… programs and administrative and operating functions are
    efficiently and effectively carried out in accordance with applicable law and
    management policy.” The management control process should be integrated into
    the daily management practices of all DoD managers. When developing the
    Management Control Program, DoD managers should rely on all contributing
    information sources, including external audits.

    DoD Instruction. DoD Instruction 5010.40, “Management Control (MC)
    Program Procedures,” August 28, 1996, requires DoD Components to develop a
    Management Control Program. The Management Control Program, through its
    self assessment process, assists managers in identifying material management
    control weaknesses. The DoD Instruction states that in order to be a material
    weakness, two conditions must be satisfied:

               •   management controls are not in place, not used, or not adequate,
                   and

               •   the weakness is material enough to require the attention of the next
                   level of management.

    Each DoD Component should submit an annual statement of assurance based on a
    general assessment of the effectiveness of the management controls. See
    Appendix J for a discussion of the elements of a management control program.


DFAS Denver General Assessment of Internal Controls
    DFAS Denver did not adequately perform a general assessment of their internal
    controls for the General Fund FBWT account. Specifically, the DFAS Denver
    Management Control Program for FBWT did not establish specific control
    objectives, potential risks, and control techniques within their assessable units
    that would have prevented the material weaknesses from occurring. Furthermore,
    DFAS Denver’s test of controls for reconciling the General Fund FBWT account
    was inadequate.

    DFAS Denver’s list of assessable units included three assessable units within
    DFAS Denver General Funds Departmental Reporting and Requirement
    Directorate that relate to the General Fund FBWT account. These assessable
    units were responsible for ensuring that:

               •   cash disbursements for DFAS Denver sites reconcile with
                   accounting records,


                                           34
               •   budgetary reports and financial statements are complete and
                   accurate and submitted by the required due date,

               •   the Master Appropriation Reference Table is properly maintained
                   and updates are timely and accurate,

               •   systems meet critical user requirements and comply with legal and
                   regulatory guidance, and

               •   guidance and procedures are available and regularly updated.

    One assessable unit included a control technique for reconciling FBWT with the
    Department On-line Accounting and Reporting System for all appropriations, but
    this system was replaced by GAFS-R in FY 2004. Additionally, this assessable
    unit included a test to validate that documentation exists to illustrate that DFAS
    Denver reconciles the GAFS-R to Treasury records. However, our audit shows
    that DFAS Denver was not adequately reconciling expenditure and receipt
    accounts.

    Overall, these assessable units did not establish specific control objectives,
    potential risks, and control techniques to prevent the material weaknesses from
    occurring. Furthermore, two of the assessable units did not have any tests of
    controls and the other did not have adequate tests of controls for reconciling the
    General Fund FBWT account. Specifically, DFAS Denver officials did not
    adequately reconcile expenditure and receipt accounts (finding A), classify
    expenditure and receipt accounts as entity or non-entity and by fund type
    (finding B), provide supporting documentation to journal voucher adjustments
    (finding C), and calculate Line 2.A., “Fund Balance per Treasury,” in Note 3,
    “Fund Balance With Treasury (finding D).”


DFAS-Wide Material Weaknesses
    DFAS Denver is required to establish and maintain a Management Control
    Program to provide reasonable assurance that programs are operating as intended
    through their Annual Statement of Assurance (ASA). The ASA is based on a
    general assessment that represents DFAS Denver’s informed judgment of the
    overall adequacy and effectiveness of their management controls. The ASA must
    also include material weaknesses and the plan to correct them.

    DFAS Denver, along with DFAS Cleveland and DFAS Indianapolis, submit their
    ASA to DFAS Headquarters annually. DFAS Headquarters then issues a
    consolidated ASA for DFAS to the OUSD(C)/CFO, who includes the ASA in the
    DoD Performance and Accountability Report. Specifically, the DFAS FY 2004
    ASA was provided in the Deputy Secretary’s Message at the front of the FY 2004
    Performance and Accountability Report. The Performance and Accountability
    Report fulfills the requirements of the FMFIA of 1982.

    However, DFAS Denver did not report two DFAS-wide material weaknesses that
    were identified and reported in the FY 2004 DFAS Headquarters ASA and DoD
    Performance and Accountability Report. Specifically, the following material
    weaknesses were reported:


                                         35
               •   Fund Balance With Treasury. The appropriation balances
                   recorded in DFAS accounting records do not balance to Treasury
                   records. DoD has had long-standing problems in reconciling
                   transaction activity in their FBWT accounts. Large unsupportable
                   differences remain that contribute to DoD’s inability to prepare
                   auditable financial statements.

               •   Suspense Accounts. DFAS centers are unable to reconcile
                   Treasury suspense accounts to their field offices. In addition, the
                   DFAS centers are not aging suspense accounts in accordance with
                   DoD criteria.


Recommendations, Management Comments, and Audit
  Response
    E.1. We recommend that the Director of Defense Finance and Accounting
    Service Denver:

           a. Develop tests to determine whether internal controls have been
    designed and implemented to prevent the material weaknesses identified in
    findings A, B, C, and D of this report.

           b. Report the material weaknesses identified in findings A, B, C, and
    D of this report in their Annual Statement of Assurance until they are
    corrected.

    Management Comments. The Director of DFAS Headquarters nonconcurred.
    The Director stated that none of the findings were proven to identify any material
    or substantive deficiencies. In addition, the Director stated that there is a formal
    and documented internal control structure in place at DFAS Denver.

    Audit Response. The Director of DFAS Headquarters comments are not
    responsive. We identified material weaknesses as defined by DoD
    Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, for the General Fund FBWT account. Specifically, we
    determined that the DFAS Denver internal controls over reconciling expenditure
    and receipt accounts (finding A), assigning entity or non-entity and fund type
    attributes to expenditure accounts (finding B), providing supporting
    documentation to journal voucher adjustments (finding C), and calculating
    Line 2.A., “Fund Balance per Treasury,” in Note 3, “Fund Balance With
    Treasury,” (finding D) were not adequate. The identified material internal control
    weaknesses relate to the compilation and reporting of the General Fund FBWT
    account on the Balance Sheet. DFAS Denver concurred with all of these findings
    and recommendations except for Recommendations B.2.b.(1)-(6).

    Our review of the DFAS Denver management control program for the General
    Fund FBWT account determined that DFAS Denver did not identify and report
    these material weaknesses in the DFAS Denver FY 2004 ASA. Therefore, DFAS
    Denver needs to develop tests of controls within their assessable units that will
    prevent these material weaknesses from occurring. We request that the Director



                                         36
of DFAS Headquarters reconsider his position on the recommendations and
provide comments on the final report.

       c. Establish coordination procedures with Defense Finance and
Accounting Service Headquarters to ensure consistent reporting of
applicable material weaknesses between the Defense Finance and Accounting
Service Denver Annual Statement of Assurance and the Defense Finance and
Accounting Service Headquarters Annual Statement of Assurance.

Management Comments. The Director of DFAS Headquarters nonconcurred
but did not provide any further comments.

Audit Response. The Director of DFAS Headquarters comments are not
responsive. Our audit results showed that DFAS Denver did not report two
DFAS material weaknesses that were identified and reported in the DFAS
Headquarters FY 2004 ASA and the DoD Performance and Accountability
Report. Establishing coordination procedures will prevent future inconsistencies
between DFAS Headquarters and DFAS Denver ASAs and the DoD Performance
and Accountability Report. This is not only necessary for the General Fund
FBWT account; it is also necessary for all other accounts. We request that the
Director of DFAS Headquarters reconsider his position on the recommendation
and provide comments on the final report.




                                   37
Appendix A. Scope and Methodology
   We reviewed the internal controls over the FBWT account related to the General
   Fund Financial Statements for the fiscal year ending September 30, 2004.
   Specifically, we reviewed the controls over the compilation process from the
   DFAS Denver GAFS-R trial balance to the published General Fund financial
   statements. We also reviewed the management control program as it related to
   the overall objective.

   We compared the expenditure and receipt accounts reported on Treasury reports
   to the expenditure and receipt accounts reported on the General Fund GAFS-R
   trial balance for September 30, 2004. All Treasury expenditure and receipt
   accounts not reported on the GAFS-R trial balance were identified and listed. We
   then determined the expenditure and receipt accounts that had activity at least
   once, that never had activity, that had activity in FY 2004, and that had a FY 2004
   year-end balance. We determined whether an expenditure or receipt account had
   activity based on Treasury reports. Specifically, we reviewed the following
   Treasury reports:

                  •   FMS 6653, “Undisbursed Appropriation Account Ledger,”

                  •   FMS 6654, “Undisbursed Appropriation Account Trial
                      Balance,” and

                  •   FMS 6655, “Receipt Account Trial Balance.”

   We only calculated the expenditure and receipt account activity for FY 2004. We
   did not calculate the dollar amount of account activity for FY 2003 and prior
   years. Activity includes beginning balance, appropriations received,
   nonexpenditure transfers, and net disbursements. We did not review the adequacy
   of the reconciliation process for the expenditure and receipt accounts that agreed
   with Treasury reports. We did not determine the adequacy of this reconciliation
   process because DFAS Denver adjusts expenditure and receipt accounts reported
   in GAFS-R to Treasury reports. We will review this reconciliation process in a
   subsequent audit.

   We reviewed the 14 journal voucher adjustments made by DFAS Denver in
   DDRS-AFS. Specifically, we reviewed these journal voucher adjustments to
   determine whether they were adequately supported.

   We reviewed DFAS Denver methodology for calculating the amount for
   Line 2.A., “Fund Balance per Treasury.” We then compared their methodology
   to criteria from FASAB, OMB, Treasury, and the DoD FMR. We only reviewed
   the transfers used by DFAS Denver for their calculation of Line 2.A., “Fund
   Balance per Treasury.”

   We did not review all the internal controls for the General Fund FBWT account.
   We did not perform any fieldwork at the DFAS Denver disbursing stations. In
   addition, we did not determine whether disbursement and collection transactions
   were adequately supported, properly recorded, accurately processed, and properly
   reported to Treasury by DFAS Denver disbursing stations. Additionally, we did
   not trace any disbursement or collection transactions from their source documents


                                       38
to accounting databases or the GAFS-R to determine if they were properly
recorded. Also, we did not trace any transactions from their source documents to
the General Fund financial statements. Furthermore, we did not perform any
internal control testing of GAFS-R or any of its feeder systems.

We performed this audit from October 22, 2004, through June 14, 2005, in
accordance with generally accepted government auditing standards.

Use of Computer-Processed Data. We relied on computer-processed data from
the Treasury accounting and reporting system obtained through the Government
On-Line Accounting Link Information Access System II (GOALS II).
Specifically, we relied on the following September 30, 2004, Treasury reports for
Fund Balance With Treasury:

   •   FMS 6653, “Undisbursed Appropriation Account Ledger,”

   •   FMS 6654, “Undisbursed Appropriation Account Trial Balance,”

   •   FMS 6655, “Receipt Account Ledger,”

   •   FMS 6655, “Receipt Account Trial Balance,” and

   •   FMS 6655, “Report of Unavailable Receipt Transactions.”

We compared the expenditure and receipt accounts reported by Treasury to the
expenditure and receipt accounts reported on the GAFS-R trial balance as of
September 30, 2004. We identified all Treasury expenditure and receipt accounts
not included on the GAFS-R trial balance. We did not perform a formal
reliability assessment of computer-processed financial data. because GOALS II is
a Treasury system and the system is outside the scope of this project and DoD
(Treasury maintains the system).

We also relied on the September 30, 2004, GAFS-R trial balance. We compared
the expenditure and receipt accounts reported on the GAFS-R trial balance to the
expenditure and receipt accounts reported by Treasury. We did not perform a
formal reliability assessment of computer-processed financial data because we are
not determining the accuracy of the expenditure and receipt accounts’ balances.
We did not find errors that would preclude the use of the computer-processed data
to meet the audit objectives or that would change the conclusions in the report.

We also relied on data from DDRS-B. Specifically, we relied on the
September 30, 2004, DDRS-B journal voucher log to determine the net and
absolute dollar amount of journal voucher adjustments made in DDRS-B to the
General Fund FBWT account balance. We did not perform a formal reliability
assessment of computer-processed data because we were only determining
whether DFAS Denver could adequately support the journal voucher adjustments.
We did not find errors that would preclude the use of the computer-processed data
to meet the audit objectives or that would change the conclusions in the report.

We also relied on data from DDRS-AFS. Specifically, we relied on the
September 30, 2004, DDRS-AFS journal voucher log to determine the net and
absolute dollar amount of journal voucher adjustments made in DDRS-AFS to the
General Fund FBWT account balance. We did not perform a formal reliability


                                   39
assessment of computer-processed data because we were only determining
whether DFAS Denver could adequately support the journal voucher adjustments.
We did not find errors that would preclude the use of the computer-processed data
to meet the audit objectives or that would change the conclusions in the report.

Additionally, we relied on the September 30, 2004, DDRS-AFS financial
statements and notes. We compared them to the September 30, 2004, General
Fund published financial statements and notes. Specifically, we compared
DDRS-AFS Balance Sheet, FBWT line item, and Note 3, “Fund Balance With
Treasury,” to the information reported in the published General Fund financial
statements. We did not perform a formal reliability assessment of computer-
processed data because we were only verifying that the information in the
DDRS-AFS financial statement and notes agreed with the published General
Fund financial statements and notes. We did not find errors that would preclude
the use of the computer-processed data to meet the audit objectives or that would
change the conclusions in the report.

Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of the Financial Management high-risk area. GAO considered
DoD Financial Management a high risk because DoD’s financial management
deficiencies represent the single largest obstacle to achieving an unqualified
opinion on the U.S. Government’s consolidated financial statements. DoD
continues to face financial management problems that are pervasive, complex,
long-standing, and deeply rooted in virtually all its business operations. DoD’s
financial management deficiencies adversely affect the Department’s ability to
control costs and claims on the budget, measure performance, maintain funds
control, prevent fraud, and address pressing management issues. GAO first
designated this area as high risk in 1995, and it remains so today.




                                    40
Appendix B. Prior Coverage
      During the last 5 years, the Government Accountability Office (GAO), the
      Department of Defense Inspector General (DoD IG), and the Air Force Audit
      Agency (AFAA) have issued seven reports that discuss the Air Force General
      Fund, Fund Balance With Treasury account issues and one report that discusses
      the overall compilation process for an agency Fund Balance With Treasury
      account. Unrestricted GAO reports can be accessed over the Internet at
      http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
      http://www.dodig.osd.mil/audit/reports. Unrestricted AFAA reports can be
      accessed at https://www.afaa.hq.af.mil/afck/plansreports/reports.shtml.

GAO
      GAO Report No. GAO-01-847, “Improvements in Air Force Fund Balance With
      Treasury Reconciliation Process,” July 2001

DoD IG
      DoD IG Report No. D-2005-026, “Reliability of U.S. Army Corps of Engineers,
      Civil Works, Fund Balance With Treasury and Unexpended Appropriations,”
      December 28, 2004

      DoD IG Report No. D-2005-014, “Independent Auditor’s Report on the Air Force
      General Funds Fiscal Year 2004 Principal Financial Statements,”
      November 8, 2004

      DoD IG Report No. D-2004-026, “Independent Auditor’s Report on the Air Force
      General Funds Fiscal Year 2003 Principal Financial Statements,”
      December 4, 2003

AFAA
      AFAA Report No. F2005-0001-FB3000, “Fund Balance With Treasury for Air
      Force General and Working Capital Funds,” June 21, 2005

      AFAA Report No. F2005-0002-FB2000, “General Accounting and Finance
      System-Rehost Controls,” March 23, 2005

      AFAA Report No. F2005-0001-FB2000, “Statement of Budgetary Resources
      (General Fund) Financial Data Systems,” February 2, 2005

      AFAA Report No. F2003-0004-FB3000, “Air Force General Fund Undistributed
      Transactions,” November 6, 2002




                                        41
Appendix C. Fund Balance With Treasury
           Accounting Standards and Criteria for Fund Balance With Treasury.
           Statement of Federal Financial Accounting Standards No. 1, “Accounting for
           Selected Assets and Liabilities,” March 30, 1993,* defines an agency’s Fund
           Balance With Treasury as the aggregate amount of funds in the agency’s accounts
           with Treasury for which the agency is authorized to make expenditures and pay
           liabilities. Fund Balance With Treasury is an intragovernmental item. From the
           reporting agency’s perspective, a Fund Balance With Treasury is an asset because
           it represents the agency’s claim to Federal Government resources. However,
           from the perspective of the Federal Government as a whole, it is not an asset; and
           while it represents a commitment to make resources available to Federal
           departments, agencies, programs, and other entities, it is not a liability.

           A Federal entity’s Fund Balance With Treasury includes clearing account
           balances. An entity’s Fund Balance With Treasury is increased by:

                    •   receiving appropriations, reappropriations, continuing resolutions,
                        appropriation restorations, and allocations received;

                    •   transfers and reimbursements received from other agencies; and

                    •   collections and credits to appropriation or fund accounts that the entity
                        is authorized to spend or use to offset its expenditures.

           An entity’s Fund Balance With Treasury is reduced by disbursements made to
           pay liabilities or to purchase assets, goods and services, investments in U.S.
           securities, cancellation of expired appropriations, transfers and reimbursements to
           other entities or to the Treasury, and sequestration or rescission of appropriations.

           Agencies should disclose the two parts of the Fund Balance With Treasury
           balance: the obligated balance not yet disbursed and the unobligated balance. In
           addition, agencies should explain any discrepancies between Fund Balance With
           Treasury in their general ledger accounts and the balance in the Treasury’s
           accounts and explain the causes of the discrepancies in footnotes to the financial
           statements.




*
    The Federal Accounting Standards Advisory Board (the Board) issues Statements of Federal Financial
     Accounting Standards. In October 1990, the Secretary of the Treasury, the Director of the Office of
     Management and Budget, and the Comptroller General of the United States established the mission for
     the Board, to develop accounting standards and principles for the United States Governments. In October
     1999, the American Institute of Certified Public Accountants recognized the Board as the organization
     that promulgates generally accepted accounting principles for Federal entities. In May 2003, the Board
     added a representative from the Congressional Budget Office to the Board.



                                                      42
Appendix D. Glossary
   Allocation. A delegation, authorized in law, by one agency of its authority to
   obligate budget authority and outlay funds to another agency.

   Appropriation. In most cases, appropriations are a form of budget authority
   provided by law that permits Federal agencies to incur obligations and make
   payments out of the Treasury for specified purposes. An appropriation usually
   follows enactment of authorizing legislation. An appropriation act is the most
   common means of providing budget authority, but in some cases the authorizing
   legislation itself provides the budget authority.

   Child. The entity that receives an appropriation/budget authority from another
   entity account.

   Clearing Account. Treasury establishes clearing accounts to temporarily hold
   unidentified general, special, or trust collections that subsequently will be
   credited to the proper receipt or expenditure account of the Federal entity.
   Clearing accounts are preceded by an “F” followed by a fund account symbol in
   the “3800” series group.

   Defense Departmental Reporting System – Audited Financial Statements
   (DDRS-AFS). DDRS-AFS is a DoD application that facilitates the preparation
   and audit of DoD financial statements, and required supplementary information.

   Defense Departmental Reporting System-Budgetary (DDRS-B). DDRS-B is
   designed to standardize the DoD departmental reporting process and produce the
   monthly departmental budgetary reports based on the United States Standard
   General Ledger and standard attributes.

   Deposit Fund. Treasury establishes a deposit fund account to record monies that
   do not belong to the Federal Government.

   FMS (Financial Management Service) 6200 “Appropriation Warrant”
   (Hard-copy Appropriation Warrants). A hard-copy appropriation warrant is a
   financial control document, issued pursuant to law (usually appropriation acts) by
   Treasury, that establishes the amount of monies authorized to be withdrawn
   (disbursed) from the central accounts that are maintained by Treasury. The hard-
   copy appropriation warrant is the basis for recording appropriations (cash) on the
   books of Treasury and the DoD.

   General Accounting and Finance System-Rehost (GAFS-R). GAFS-R is the
   official DFAS Denver department accounting system. GAFS-R was implemented
   in FY 2004. DFAS Denver uses GAFS-R to prepare financial statements and
   reports.

   General Fund. Treasury establishes general fund expenditure accounts to record
   amounts appropriated by Congress for the general support of the Government.

   Government On-Line Accounting Link Information Access System II
   (GOALS II). This is the system that allows Treasury to receive agency
   accounting data and distribute agency accounting reports. The system includes


                                       43
many different subsystems for different financial accounting and reporting
purposes.

Invisible Warrants. Treasury transfers the funds from available receipt accounts
to expenditure accounts through invisible warrants.

Parent. This is the entity that transfers an appropriation/budget authority to
another entity account.

Revolving Fund. Revolving funds are authorized by specific provisions of law to
finance a continuing cycle of business-type operations. The receipts are credited
directly to the revolving fund as offsetting collections and are available for
expenditure without further action by Congress.

Special Fund. Treasury establishes special fund expenditure accounts to record
amounts appropriated from special fund receipts. Agencies may expend those
receipts for special programs according to specific provisions of law.

SF (Standard Form) 1219, “Statement of Accountability.” Each DoD
disbursing station is required to prepare the Statement of Accountability monthly.
The Statement of Accountability reports information to the Treasury on deposits,
interagency transfers, and checks issued. The Statement of Accountability also
reports net disbursements—the sum of the deposits, interagency transfers, and
checks issued that month.

SF 1220, “Statement of Transactions.” Each DoD disbursing station is required
to prepare the Statement of Transactions monthly. The Statement of Transactions
reports the disbursements shown on the Statement of Accountability by
appropriation. Treasury requires that the net disbursements reported on the
Statement of Transactions agree with the net disbursements reported on the
Statement of Accountability.

Transfer. To reduce budgetary resources (budget authority and unobligated
balances) in one account and increase them in another, by the same amount.

Trust Fund. Treasury establishes trust fund expenditure accounts to record
amounts appropriated from trust fund receipts. Agencies may expend those
receipts for specific purposes or programs according to the terms of a trust
agreement or statute.




                                     44
Appendix E. Treasury Fund Symbols and
            Expenditure and Receipt Accounts
   Treasury and OMB assign, amend, change, and discontinue account symbols and
   titles. The account symbols represent individual appropriations, receipts, and
   other fund accounts by agency. The account symbols are used to report to
   Treasury and OMB. Treasury provides a listing of all assigned symbols and titles
   in the Federal Account Symbols and Titles Book.

   Expenditure and receipt accounts are classified by Treasury and then assigned to a
   fund group based on their characteristics and the nature of the transactions they
   support. Treasury and OMB classify transactions within fund groups by
   assigning numeric or alphanumeric account symbols. After considering the
   Government’s relationship to the accounts, the availability of the funds for
   expenditure, and the sources of the receipts; Treasury assigns the account symbols
   to agencies.

   Expenditure Accounts. Treasury uses the following fund groups for
   expenditures:

      •   General fund expenditure accounts are created by Treasury to record
          amounts appropriated by Congress for the general support of the
          Government.

      •   Management fund accounts are created by Treasury to facilitate
          accounting for administration of intragovernmental activities other than a
          continuing cycle of operations. These accounts are working fund accounts
          that are authorized by law.

      •   Revolving fund accounts are created by Treasury to record funds
          authorized by specific provisions of law to finance a continuing cycle of
          business-type operations. Receipts are credited as offsetting collections
          directly to the revolving fund. They are then available for expenditure
          without any further action by Congress. The receipts are classified by
          Treasury as public enterprise funds, in which receipts come primarily from
          sources outside the Government, or intergovernmental funds, in which
          receipts come primarily from other appropriations or funds.

      •   Special fund expenditure accounts are created by Treasury to record
          amounts appropriated from special fund receipts. These receipts may be
          used by agencies for special programs according to specific provisions of
          law.

      •   Deposit fund accounts are created by Treasury to record monies that do
          not belong to the Federal Government.

      •   Trust fund expenditure accounts are created by Treasury to record
          amounts appropriated from trust fund receipts. These receipts may be
          used by agencies for specific purposes or programs according to the terms
          of a trust agreement or statute. Trust revolving funds are created by
          Treasury when a law authorizes a revolving fund and designates the


                                       45
       revolving fund as a trust fund. In all other regards, they are the same as a
       revolving fund.

Expenditure account symbols consist of seven or more digits. The first 2 digits
identify the agency responsible for the account. The next digits represent the
period of availability for the obligation. The last four digits identify the specific
account by fund group.

Table E-1 shows how Treasury classifies expenditure accounts and assigns
symbols by fund groups and major classes.

                Table E-1. Classification of Expenditure
                         Accounts by Treasury

                       Fund Group              Major Class
                General fund accounts        0000-3799
                 Clearing accounts           3800-3899
                 Management fund             3960-3999
                Revolving fund               4000-4999
                 Public enterprise           4000-4499
                 Intragovernmental           4500-4999
                Special fund                 5000-5999
                Deposit fund                 6000-6999
                Trust fund                   8000-8399 and
                                             8500-8999
                Trust revolving fund         8400-8499


The period of availability is identified by the account symbol as follows:

   •   Annual appropriations are designated with a single digit that indicates the
       fiscal year of availability for incurring obligations of a 1-year
       appropriation.
   •   Multiple-year appropriations are designated with two digits separated by a
       slash for incurring obligations for a definite period in excess of one fiscal
       year. The digit preceding the slash indicates the first fiscal year of
       availability, and the digit immediately following the slash indicates the
       final fiscal year of availability.

   •   No-year appropriations are designated with an “X” to indicate that the
       appropriation is available for obligations for an indefinite period of time.

For example, the account symbol for the Air Force operation and maintenance
appropriation for FY 2005 would be 57 05 3400.

In addition, transfer appropriation accounts are created by Treasury to receive,
and later obligate and disburse, allocations treated as nonexpenditure transactions.
These accounts are symbolized by adding the receiving agency’s department
prefix to the original appropriation or fund account symbol.



                                      46
For example, the account symbol for the Air Force transfer of FY 2005 operation
and maintenance funds to the Department of Transportation would be
69 57 05 3400.

Receipt Accounts. Treasury uses the following fund groups for receipts:

   •   General fund receipt accounts are credited by Treasury with all receipts
       not earmarked by law for a specific purpose.

   •   Special fund receipt accounts are credited by Treasury with receipts from
       specific sources earmarked by law for specific purposes. Depending on
       statutory requirements, after collection, these receipts may be available
       immediately or unavailable for expenditures.

   •   Trust fund receipt accounts are credited by Treasury with receipts
       generated by a trust agreement or statute that designates a fund as a trust
       fund. Depending on statutory requirements, after collection, these receipts
       may be available immediately or unavailable for expenditures.

   •   Clearing accounts are created by Treasury to temporarily hold
       unidentifiable general, special, or trust funds collections that belong to the
       Government until they are classified to the correct receipt or expenditure
       account by the Government agency. The accounts can be identified by the
       “F” preceding the last four digits of the fund account symbol.

Receipt account symbols usually consist of six digits with the exception of receipt
clearing accounts and available receipt accounts. The first two digits identify the
agency which is administratively responsible for the receipts. The last four digits
(Major Class) identify the account within that fund group.

Table E-2 shows how Treasury classifies receipt accounts and assigns symbols by
fund groups and major classes.

                  Table E-2. Classification of Receipt
                        Accounts by Treasury

                       Fund Group                Major Class
              General fund accounts               0100-3000
              Clearing accounts                        3800
              Special fund receipt accounts       5000-5999
              Trust fund receipt accounts         8000-8999


Available receipts are special or trust fund receipts that, pursuant to law, are
available as appropriations to a single agency for expenditure without further
congressional action. An available receipt account uses the same symbol as its
corresponding expenditure account except that an “X” is inserted to specify the
period of availability of such funds for obligation. Unavailable receipts are
receipts that, when collected, are not appropriated and not immediately available




                                     47
for expenditure. The funds are unavailable either because Congress limited the
amount available for expenditure or agencies cleared amounts credited to receipt
accounts, in whole or in part, to other receipt accounts before taking appropriation
warrant action.




                                    48
Appendix F. Treasury Reports for Fund Balance
            With Treasury
            Treasury prepares five Fund Balance With Treasury reports including three Fund
            Balance With Treasury reports for receipt accounts and two Fund Balance With
            Treasury reports for expenditure accounts.

            Treasury Reports for Receipt Accounts. The three Fund Balance With
            Treasury reports for receipt accounts are the:

                •    FMS 6655, “Receipt Account Trial Balance,”1
                •    FMS 6655, “Receipt Account Ledger,”2 and
                •    FMS 6655, “Report of Unavailable Receipt Transactions.”3

            The three reports include summary information for each receipt account
            regarding:

                •    current month receipts and
                •    fiscal year-to-date Fund Balance With Treasury.

            Treasury Reports for Expenditure Accounts. The two Fund Balance With
            Treasury reports for expenditure accounts are the:

                •    FMS 6654, “Undisbursed Appropriation Account Trial Balance,”4 and
                •    FMS 6653, “Undisbursed Appropriation Account Ledger.”5

            The two reports show the same summary information for each expenditure
            account:

                •    beginning fiscal year Fund Balance With Treasury,
                •    fiscal year-to-date appropriations,
                •    fiscal year-to-date nonexpenditure transfers,




1
    The FMS 6655, “Receipt Account Trial Balance,” reports both available and unavailable receipt accounts.
     Treasury issues the FMS 6655, “Receipt Account Trial Balance,” every month for each applicable
     account (including accounts with no transactions during the month).
2
    Treasury issues the FMS 6655, “Receipt Account Ledger,” for accounts with transactions during the
     month but does not list accounts that had no transactions during the month.
3
    The FMS 6655, “Report of Unavailable Receipt Transactions,” reports only unavailable receipt accounts.
     Treasury issues this report for accounts with transactions during the month but does not list accounts that
     had no transactions during the month.
4
    Treasury issues the FMS 6654, “Undisbursed Appropriation Account Trial Balance,” every month for
     each applicable account (including accounts with no transactions during the month).
5
    Treasury issues the FMS 6653, “Undisbursed Appropriation Account Ledger,” for accounts with
     transactions during the month but does not list accounts that had no transactions during the month.



                                                        49
                •   fiscal year-to-date net disbursements,6 and
                •   fiscal year-to-date Fund Balance With Treasury.

            The fiscal year-to-date appropriations line includes appropriation warrants issued
            by Treasury on the FMS 6200, “Department of the Treasury Appropriation
            Warrant,” or in invisible form.7

            The fiscal year-to-date nonexpenditure transfers line includes nonexpenditure
            transfers made by Treasury on the SF 1151, “Nonexpenditure Transfer
            Authorization.”

            The fiscal year-to-date net disbursements line includes net disbursements that
            agencies report to Treasury, by account, on statements of transactions.8

            Therefore, the three lines provide the universe by transaction type (appropriation
            warrants, nonexpenditure transfers, and net disbursements) applicable to each
            expenditure account.




6
    The reports also show the net disbursements by agency location code (ALC). The first two numbers of
     the agency location code represent the agency to which the Treasury has assigned the disbursing station.
     For example, net disbursements with an agency location code beginning with Treasury Index 21 represent
     disbursing stations that the Treasury assigned to the Army. Army disbursing stations now report to the
     Defense Finance and Accounting Service (DFAS) Indianapolis.
7
    Treasury does not issue an FMS 6200, “Department of the Treasury Appropriation Warrant,” for certain
     funds reported as fiscal year-to-date appropriations. Funding provided without issuance of a FMS 6200,
     “Department of the Treasury Appropriation Warrant,” is referred to as an invisible warrant.
8
    Agencies with disbursing authority report net disbursements by account on statements of transactions.
    DoD agencies use the SF 1220, “Statement of Transactions,’ and the DD 1329, “Statement of
    Transactions.” The Department of State reports net disbursements by account on the SF 1221,
    “Statement of Transactions (Foreign Service Accounts).”



                                                       50
Appendix G. List of Expenditure and Receipt
            Accounts Not Reconciled from the
            GAFS-R Trial Balance
   Table G-1 lists the 91 expenditure accounts reported by Treasury for the General
   Fund on the September 30, 2004, FMS 6654 “Undisbursed Appropriation
   Account Trial Balance” that were not reconciled from the General Fund
   September 30, 2004, GAFS-R trial balance for the FBWT 1010 account.

                  Table G-1. Expenditure Accounts Not Reconciled
                                         Never        FY 2004         FY 2004
                       With Activity   Had Activity   Activity     Ending Balance
   57 02 0704               X
   57 0206 0704             X
   57 0509 0740                             X
   57 05 0745                               X
   57 X 1997                X
   57 X 1998                X
   57 M 3010                X
   57 01 3010               X
   57 02 3010               X
   57 0102 3010                             X
   57 03 3010                               X
   57 0203 3010             X
   57 0104 3010                             X
   57 0304 3010                             X
   57 0205 3010                             X
   57 0306 3010                             X
   57 0507 3010                             X
   57 0001 3011                             X
   57 0102 3011                             X
   57 0203 3011                             X
   57 0304 3011                             X
   57 0507 3011                             X
   57 00 3012               X
   57 01 3012                               X
   57 02 3012                               X
   57 03 3012                               X
   57 X 3013                X
   57 M 3020                X
   57 0507 3020                             X
   57 M 3080                X
   57 99 3080               X
   57 0104 3080                             X
   57 0205 3080                             X
   57 0306 3080                             X
   57 0507 3080                             X




                                       51
         Table G-1. Expenditure Accounts Not Reconciled (cont’d)
                                    Never        FY 2004       FY 2004
                  With Activity   Had Activity   Activity   Ending Balance
57 M 3300              X
57 00 3300             X                            X
57 01 3300             X
57 02 3300             X
57 03 3300             X
57 0306 3300                           X
57 0509 3300                           X
57 M 3400              X
57 0102 3400           X
57 0304 3400                           X
57 05 3400                             X
57 M 3500              X
57 0102 3500           X
57 0203 3500                           X
57 0304 3500                           X
57 05 3500                             X
57 M 3600              X
57 02 3600             X
57 03 3600             X
57 0506 3600                           X
57 M 3700              X
57 05 3700                             X
57 0509 3730                           X
57 M 3740              X
57 0102 3740                           X
57 0203 3740                           X
57 0304 3740                           X
57 05 3740                             X
57 00 3830                             X
57 01 3830                             X
57 02 3830                             X
57 03 3830                             X
57 0509 3830                           X
57 M 3840              X
57 0102 3840                           X
57 0203 3840                           X
57 0304 3840                           X
57 05 3840                             X
57 M 3850              X
57 05 3850                             X
57 11 0203 1081                        X
57 11 0304 1081                        X
57 11 05 1081                          X
57 11 05 1082                          X
57 X 6002              X
57 X 6031              X




                                  52
         Table G-1. Expenditure Accounts Not Reconciled (cont’d)
                                         Never             FY 2004       FY 2004
                   With Activity       Had Activity        Activity   Ending Balance
57 00 6060                                 X
57 01 6060                                 X
57 02 6060                                 X
57 X 6113               X
57 99 6763              X
57 05 6763                                  X
57 F 0152               X                                                       X
57 F 3875 001           X                                     X
57 F 3885 007           X                                     X
57 F 3886               X


Table G-2 lists the 22 receipt accounts reported by Treasury for the General Fund
on the September 30, 2004, FMS 6655 “Receipt Account Trial Balance” that were
not reconciled from the General Fund September 30, 2004, GAFS-R trial balance
for the FBWT 1010 account.

                Table G-2. Receipt Accounts Not Reconciled
                                                                         FY 2004
                       With Activity            FY 2004 Activity      Ending Balance
57 0869                     X
57 0891                     X
57 1030                     X
57 1060                     X                          X                    X
57 1099                     X                          X                    X
57 1125                     X
57 1210                     X                          X                    X
57 1299                     X                          X                    X
57 1435                     X                          X                    X
57 2462                     X
57 2621                     X
57 2641                     X
57 3102 001                 X
57 3102 002                 X
57 3102 003                 X
57 3200                     X                          X                    X
57 3220                     X
57 5095 001                 X                          X                    X
57 8928 001                 X                          X                    X
57 8928 002                 X                          X                    X
57 8928 021                 X
57 8930 002                 X




                                       53
Appendix H. Checklists for Reviewing Financial
            Management Systems
   GAO Checklist. GAO-05-225G, “Checklist for Reviewing Systems under the
   Federal Financial Management Improvement Act,” February 2005, states, “There
   is no requirement that this checklist be used in assessing core financial systems.
   Rather, it is provided as a tool for use by experienced staff and is one in a series
   of documents we have issued to assist agencies in improving or maintaining
   effective operations.” The GAO Checklist also states, “The Federal Financial
   Management Improvement Act of 1996 (FFMIA) requires, among other things,
   that agencies implement and maintain financial management systems that
   substantially comply with federal financial management system requirements.”
   In addition, the GAO Checklist states,
          OMB’s 2001 implementation guidance provides the agency heads and
          inspectors general with a means for determining whether their
          agencies’ financial management systems substantially comply with
          federal financial management system requirements. Agencies can use
          this checklist as a tool to help determine compliance with federal
          financial management system requirements as well as to assist in their
          annual reporting on such compliance as required by 31 U.S.C.
          § 3512(d).

   The GAO Checklist further states “Completing this checklist will allow agencies
   to systematically determine whether specific systems requirements are being met.
   In determining compliance with FFMIA requirements, agencies should assess the
   results of the completed checklist based on the core financial system requirements
   taken as a whole.” Additionally, the GAO Checklist states,
          Functional requirements have been established to provide the basic
          information and control needed to carry out financial management
          functions; manage the financial operations of an agency; and report on
          the agency’s financial status to central agencies, Congress, and the
          public. This includes data needed to prepare the principal financial
          statements for federal agencies in accordance with OMB Bulletin
          No. 01-09, Form and Content of Agency Financial Statements.

   DFAS Blue Book. DFAS 7900.4G, “A Guide to Federal Requirements for
   Financial Management Systems,” (Blue Book ), Version 4.1.2, November 2004,
   states,
          While this document represents an extensive compilation of Federal
          requirements applicable to DoD’s financial management systems, it
          does not necessarily include all requirements that pertain to such
          systems. A myriad of requirements applicable to Federal financial
          management systems exists in dozens of different authoritative sources.
          This document contains hundreds of requirements promulgated by the
          central agencies and DoD. As such, the document represents a
          valuable tool for systems managers, operators, programmers, and
          accountants to use in planning, developing, implementing, modifying,
          and evaluating financial management systems. The intent of this
          document, as a tool, is to focus management’s attention on the


                                           54
requirements financial management systems must satisfy.
Management, however, is explicitly responsible for being
knowledgeable of the actual laws and regulations and ensuring that
their systems comply with them.




                               55
Appendix I. Hierarchy of Accounting Standards
   The American Institute of Certified Public Accountants designated the Federal
   Accounting Standards Advisory Board (FASAB) as the body that establishes
   accounting principles for Federal entities. The American Institute of Certified
   Public Accountants hierarchy of generally accepted accounting principles
   (GAAP) in Statement of Auditing Standards No. 91, “The Federal GAAP
   Hierarchy,” governs what constitutes GAAP for U.S. Government reporting
   entities. The hierarchy lists the priority sequence of sources that an entity should
   look to for accounting and reporting guidance.

   For financial statements of Federal Government entities, the GAAP hierarchy is:

          •   FASAB Statements and Interpretations.
          •   FASAB Technical Bulletins.
          •   FASAB Accounting and Auditing Committee Technical Releases and
              the AICPA Accounting Standards Executive Committee Practice
              Bulletins.
          •   FASAB implementation guides and common business practices within
              the Federal Government.

   Further, the DoD FMR, Volume 1, Chapter 8, “Hierarchy of Accounting
   Standards,” May 1998, sets forth the accounting standards that shall be followed
   by DoD. Chapter 8 states that the following criteria comprise Federal GAAP and
   must be followed by DoD and each DoD Component:

          •   SFFASs,
          •   Interpretations related to SFFASs,
          •   OMB’s Form and Content Bulletin,
          •   Accounting Principles published by other authoritative standard-setting
              bodies and authoritative sources if the use of such accounting
              principles improves the meaningfulness of the financial statements,
          •   U.S. Government Standard General Ledger
          •   Policies and guidance published in the DoD FMR, and
          •   Interim policies and guidance issued by the OUSD(C)/CFO through
              various memoranda.




                                        56
Appendix J. Elements of a Management Control
            Program
   DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
   August 28, 1996, requires DoD Components to develop a MC Program that
   includes the following elements:

         •   Establish a Management Control Process. Each DoD Component
             should establish a MC process that will conclude with the reporting of
             management’s opinion about the effectiveness of its MCs. This
             process must include, as appropriate, assigning responsibilities and
             providing personnel for planning, directing, and executing the MC
             Program; developing internal reporting and tracking capabilities;
             ensuring periodic evaluations of MCs; and maintaining appropriate
             documentation.

         •   Segment into Assessable Units. Each DoD Component should
             establish and maintain an inventory of its assessable units segmented
             along organizational, functional, or programmatic lines.

         •   Evaluate the Effectiveness of Management Controls. Each DoD
             Component should establish an evaluation process or mechanism to
             meet its specific requirements.

         •   Identify, Report, and Correct Material Weaknesses. Each DoD
             Component should establish and maintain a process that identifies,
             reports, and corrects MC weaknesses.

         •   Establish Senior Management Council. Each DoD Component
             should establish a senior management council to assess and monitor
             MC Program efforts.

         •   Submit an Annual Statement of Assurance. Each DoD Component
             should submit an annual statement of assurance based on a general
             assessment of the effectiveness of the MCs.




                                      57
Appendix K. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
President, Naval Postgraduate School

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Finance and Accounting Service
Director, Defense Intelligence Agency
Director, Defense Logistics Agency
Director, National Security Agency
President, Defense Systems Management College

Non-Defense Federal Organization
Office of Management and Budget




                                          58
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        59
Office of the Under Secretary of Defense
Comments




                       61
62
63
64
Defense Finance and Accounting Service
Comments




                      65
66
67
68
69
70
71
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Douglas P. Neville
Mark S. Henricks
William W. Lemmon
James H. Fleischman
Jose J. Delino
Thomas G. Daquano, Jr.
William R. Fagerholm
Cindy L. Gavura
